<html>
<title> - BOOTS AT THE BORDER: EXAMINING THE NATIONAL GUARD DEPLOYMENT TO THE SOUTHWEST BORDER</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  BOOTS AT THE BORDER: EXAMINING THE NATIONAL GUARD DEPLOYMENT TO THE 
                            SOUTHWEST BORDER

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2018

                               __________

                           Serial No. 115-72

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
34-349 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a> 
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                
                                
                              ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           J. Luis Correa, California
Will Hurd, Texas                     Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Don Bacon, Nebraska                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
    Alison B. Northrop, Minority Subcommittee Staff Director/Counsel
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Rodolfo Karisch, Chief Patrol Agent, Tucson Sector, U.S. 
  Border Patrol, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. John F. Nichols, Adjutant General, Texas National Guard:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Michael T. McGuire, Adjutant General, Arizona National Guard:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16

                             For the Record

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California:
  Letter From Governor Edmund G. Brown, Jr. of California........    33
  Executive Order From Governor John W. Hickenlooper of Colorado.    33
  Press Release From Governor Dannel P. Malloy of Connecticut....    35
  Press Release From Governor John Carney of Delaware............    35
  Tweets From Governor Larry Hogan of Maryland...................    36
  Tweet From Governor Steve Bullock of Montana...................    36
  Press Release From Governor Phil Murphy of New Jersey..........    36
  Statement From Governor Andrew M. Cuomo of New York............    36
  Press Release From Governor Roy Cooper of North Carolina.......    37
  Tweets From Governor Kate Brown of Oregon......................    37
  Tweet From Governor Tom Wolf of Pennsylvania...................    37
  Statement From Governor Gina Raimondo of Rhode Island..........    37
  Statement From Governor Phil Scott of Vermont..................    37
  Press Release From Governor Ralph Northam of Virginia..........    38

                                Appendix

Questions From Honorable Filemon Vela for Rodolfo Karisch........    41

 
  BOOTS AT THE BORDER: EXAMINING THE NATIONAL GUARD DEPLOYMENT TO THE 
                            SOUTHWEST BORDER

                              ----------                              


                         Tuesday, July 24, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:43 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Hurd, Bacon, Vela, 
Richmond, Correa, Demings, and Barragan.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order. Subcommittee is meeting today to examine policies that 
impact the Department's ability to secure the border. I now 
recognize myself for an opening statement.
    After chairing the subcommittee over the past 2\1/2\ years, 
leading many hearings, visiting different regions of the 
Southern Border, and spending time at the border in my State 
with ranchers, Homeland Security Secretary Nielsen, Border 
Patrol agents, and local law enforcement, I am confident when I 
say that border security is National security. We continue to 
see growing levels of illegal drugs, dangerous gang and 
transnational criminal organization activity, as well as 
illegal immigration flow, across our Southern Border.
    This not only poses a threat to our communities and 
families but also our rule of law. When our borders are not 
respected, our sovereignty is not respected. That is why we 
need a multifaceted approach to border security that the 
Department continues to reiterate, including a combination of 
border wall, technology, access, and personnel using 
intelligence-driven operations to detect and intercept the 
illegal flow.
    Today, our focus is on personnel and the capabilities at 
the border. Staffing shortages at both the ports of entry and 
in Border Patrol are exacerbated by both the hiring process 
that takes far too long and retention challenges that have 
persisted for years with no signs of abatement. CBP is 
critically understaffed and remains well below its 
Congressionally-mandated staffing levels by more than 1,000 CBP 
officers and 1,900 Border Patrol agents. Combined with the 
growing crisis along the Southwest Border, this shortage has 
put our Nation's security at risk.
    In April, President Trump announced the deployment of the 
National Guard to help secure the Southwest Border, a decision 
I wholeheartedly support. Such a deployment is not a new 
concept. U.S. Customs and Border Protection and the National 
Guard have a long-standing successful working relationship due 
to cooperation on counterdrug task forces as well as through 
past operational deployments to the border. The number of 
illegal border crossings leading up to April's announcement 
shows an urgent need to address the on-going situation.
    We witnessed a 207 percent increase from March 2017 
compared to March 2018, and a 244 percent increase from April 
2017 to April 2018. Over the last 3 months, National Guardsmen 
and women have been operating along the border to help execute 
logistical and administrative support, operate sensor and 
imaging detection systems, provide mobile communications, 
augment border-related intelligence analysis efforts, build and 
install border security infrastructure, and many other 
functions. The National Guard deployment allows the opportunity 
to put badges back on the border so they can enforce the law, 
and interdict and apprehend those who are illegally crossing.
    This support can also help CBP process people and goods 
faster at our ports of entry, freeing up our highly-skilled 
officers to conduct law enforcement interviews and inspections 
instead of handling logistical and administrative duties. 
Governor Doug Ducey in my home State of Arizona was one of the 
first Governors to answer the President's call. Today, 657 
Arizona personnel support Operation Guardian Support. However, 
these operations are not just the responsibility of the 4 
Southwest Border States--this is a National mission and it is 
appropriate that everyone pitch in to reinforce our defense of 
the homeland.
    I am happy to see National Guard units from across the 
country have contributed by sending helicopters, personnel, and 
other resources to support this important mission. For decades, 
the Department of Defense has been a key partner in supporting 
CBP's border security efforts. The brave men and woman of DHS 
have worked tirelessly alongside their DOD counterparts in the 
name of defending our homeland. I want to thank all of you for 
your service. The service is not lost on us.
    The DOD has, and I suspect, will continue to play an 
important role in helping us secure the border into the future. 
For that reason, we need to make sure they have certainty about 
funding and even further, take a long hard look at their 
continued assistance with homeland defense activities. Though 
the National Guard helps alleviate the staffing shortages at 
the border, we cannot continue to surge our citizen soldiers 
and their resources for just brief periods of time and recall 
them shortly after, and expect whatever gains are made won't 
deteriorate once these assets return home.
    We need to have a post-surge plan and sustained operations 
to increase situational awareness and gain operational control 
of the border. In addition to being the Chair of this 
subcommittee, I am 1 of 9 Members of Congress who represents a 
border district. My constituents have waited too long for 
Washington, DC to provide all the resources, strategy, manpower 
required to secure the border and stop the cartel activity in 
our communities.
    Today, we are here to examine the deployment of the 
National Guard personnel to the Southwest Border, their ability 
to enhance CBP operations in Texas and Arizona, specifically, 
these duties of National Guard troops, and coordination efforts 
between DHS and DOD. I basically want to know how is it going, 
how is the missioning happening and what else can we do to 
support the mission, what successes have you had and what 
barriers remain.
    I would like thank all the witnesses for their time. I look 
forward to hearing your testimony. With that, I yield to the 
gentleman from Texas, Mr. Vela, for any statement he would like 
to give.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                             July 24, 2018
    After chairing this subcommittee over the past 2\1/2\ years, 
leading many hearings, visiting the different regions of the Southern 
Border, and spending time at the border in my State with ranchers, 
Homeland Security Secretary Nielsen, Border Patrol agents, and local 
law enforcement, I am confident when I say that border security, is 
National security.
    We continue to see growing levels of illegal drugs, dangerous gang, 
and transnational criminal organization activity, as well as illegal 
immigration flow, across our Southwest Border. This not only poses a 
threat to our communities and families but also our rule of law.
    When our borders are not respected, our sovereignty is not 
respected. That is why we need a multi-faceted approach to border 
security that the Department continues to reiterate, including a 
combination of border wall, technology, access, and personnel using 
intelligence-driven ops to detect and intercept the illicit flow.
    Today, our focus is on personnel, and their capabilities at the 
border.
    Staffing shortages at both the ports of entry and in the Border 
Patrol are exacerbated by both a hiring process that takes far too long 
and retention challenges that have persisted for years, with no signs 
of abatement.
    CBP is critically understaffed and remains well below its 
Congressionally-mandated staffing levels by more than 1,000 CBP 
officers and 1,900 Border Patrol agents.
    Combined with the growing crisis along the Southwest Border, this 
shortage has put our Nation's security at risk.
    In April, President Trump announced the deployment of the National 
Guard to help secure the Southwest Border. A decision I wholeheartedly 
support. Such a deployment is not a new concept. U.S. Customs and 
Border Protection (CBP) and the National Guard have a long-standing 
successful working relationship due to cooperation on counterdrug task 
forces as well as through past operational deployments to the border.
    The number of illegal border crossings leading up to the April 
announcement shows an urgent need to address the on-going situation at 
the border. We witnessed a 207 percent increase from March 2017 
compared to March 2018, and a 244 percent increase from April 2017 
compared to April 2018.
    Over the last 3 months, National Guardsmen and women have been 
operating along the border to help execute logistical and 
administrative support, operate sensor and imaging detection systems, 
provide mobile communications, augment border-related intelligence 
analysis efforts, build and install border security infrastructure, and 
other functions.
    The National Guard deployment allows the opportunity to put badges 
back on the border so they can enforce the law, and interdict and 
apprehend those who are illegally crossing.
    This support can also help CBP process people and goods faster at 
our ports of entry, freeing up our highly-skilled officers to conduct 
law enforcement interviews and inspections instead of handling 
logistical and administrative duties.
    Governor Doug Ducey in my home State of Arizona was one of the 
first Governors to answer the President's call and today, 657 Arizona 
personnel support Operation Guardian Support. However, these operations 
are not just the responsibility of the 4 Southwest Border States--this 
is a National mission and it is appropriate that everyone pitch in to 
reinforce our defense of the homeland. I am happy to see that National 
Guard units from across the Nation have contributed by sending 
helicopters, personnel, and other resources to support the Southwest 
Border security mission.
    For decades, the Department of Defense has been a key partner in 
supporting CBP's border security efforts. The brave men and woman of 
DHS have worked tirelessly along with their DOD counterparts in the 
name of defending the homeland, and I want to thank them for their 
sacrifices. Your service is not lost on us.
    The Department of Defense has, and I suspect, will continue to play 
an important role in helping us secure the border into the future. For 
that reason, we need to make sure they have some certainty about 
funding and even further, we need to take a long hard look at their 
continued assistance with homeland defense activities in the long-term.
    Though the National Guard helps alleviate the staffing shortages at 
the border, we cannot continue to surge our citizen soldiers and their 
resources for a brief period of time, then recall them shortly after 
and expect that whatever gains are made won't deteriorate once these 
assets return home. We need to have a post-surge plan to sustain 
operations, increase situational awareness, and gain operational 
control of the border.
    In addition to being the Chair of this subcommittee, I am one of 9 
Members of Congress who represents a border district. My constituents 
have waited too long for Washington, DC to provide the resources, 
strategy, manpower required to secure the border and stop the cartel 
activity in our communities.
    Today we are here to examine the deployment of National Guard 
personnel to the Southwest Border, their ability to enhance CBP 
operations in Texas and Arizona, specific duties of National Guard 
troops, and coordination efforts between DHS and DOD.
    I would like to thank the witnesses for their time and I look 
forward to hearing their testimony.
    With that, I will yield to the gentleman from Texas, Mr. Vela, for 
any statement he would like to give.

    Mr. Vela. Thank you, Chairwoman McSally for holding this 
hearing. Today, we will discuss the most recent National Guard 
deployment to our Southern Border. As I stated on the day this 
deployment was announced, this is a horrendous idea. As with 
many of this administration's justifications for misguided 
border security actions, context and strategy are completely 
lacking. The Southern Border is not a lawless war zone. What 
chaos we have seen has been created by this administration.
    My district is in the Border Patrol's Rio Grande Valley, 
one of the higher-traffic sectors along the Southern Border. 
This sector has the second-largest number of Border Patrol 
agents assigned to it only behind Tucson. We also have a large 
contingent of Texas Department of Public Safety personnel 
assisting the Border Patrol. I know that our local law 
enforcement officials are engaged in keeping our communities 
secure along this stretch of the border.
    In addition the Texas National Guard has an on-going border 
security mission ever since former Governor Rick Perry deployed 
1,000 Guardsmen to the Texas-Mexico border in 2014. To say that 
the border is lawless is a lie. Deploying National Guard 
personnel to the Southern Border is not new, but the 
circumstances for this deployment are unusual. Facts and 
context matter despite the administration's repeated attempts 
to frame them in a way that justifies its misguided and 
inhumane policies.
    As you can see in this graph, there were 70 percent fewer 
apprehensions in March 2018, a month before President Trump's 
order and then a month before President Bush's 2006 
mobilization. In 2006, U.S. Customs and Border Protection had 
50 percent fewer Border Patrol agents on board than we have 
today, and the average agent apprehended approximately 97 
people per year. For context, in 2017, the average Border 
Patrol agent apprehended less than 20 people per year across 
all Northern and Southern Border sectors. To say that 
immigrants are overrunning our border is a lie.
    The purposes for the prior two deployments were also 
different than the one launched earlier this year. During 
Operation Jumpstart, the Bush administration was in the midst 
of hiring and training thousands more Border Patrol agents. 
Once staffing levels increased by 40 percent, the operation 
ended in 2008.
    Operation Phalanx was launched in 2010 when cartel violence 
on the Mexican side was rising and the threat of spillover 
violence was a serious concern. Today, apprehension levels are 
at the lowest levels we have seen since the early 1970's and 
the threat of border violence is less. The purposes for this 
new deployment are purely reactionary and political.
    Let us remember that in early April, the President was 
reacting impulsively to backlash from the far right about the 
spending bill we had--he had just signed that had less than the 
$25 billion he wanted for his boondoggle border wall. DHS had 
also just reported that apprehension levels were rising as they 
typically do in the early spring months. Keep in mind that more 
than one-third of apprehensions along the Southwest Border in 
the first 5 months of fiscal year 2018 were of unaccompanied 
children and families.
    We know that these individuals often seek out Border Patrol 
agents in order to request asylum or other humanitarian aid. 
The White House and the rest of the administration spun itself 
up into a frenzy over the so-called caravan and the President 
announced his intention to militarize our border. DHS and DOD 
then had to scramble to pull together this deployment in the 
following weeks.
    Around the same time, the administration began to 
criminally charge apprehended adults, separate families without 
a thought to reunification, and to obstruct people legally 
seeking asylum at our ports of entry. The reasons for this new 
National Guard deployment and harsh immigration policies had to 
be overblown, and the chaos that the administration was 
claiming as justification was fabricated.
    Clearly, mobilizing the National Guard to support CBP 
operations can be done with a clear purpose and strategy. This 
does not seem to be the case this time around. I thank our 
witnesses for joining us today. But I fear that your time and 
resources are being misspent on a deployment that may be 
nothing more than political show. Nonetheless, I thank you for 
joining us this afternoon and I yield back the balance of my 
time.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                             July 24, 2018
    Today we will discuss the most recent National Guard deployment to 
our Southern Border. As I stated on the day this deployment was 
announced, this is a horrendous idea. As with many of this 
administration's justifications for misguided border security actions, 
context and strategy are completely lacking.
    The Southern Border is not a lawless war zone, and what chaos we 
have seen has been created by this administration. My district is in 
the Border Patrol's Rio Grande Valley sector--one of the higher-traffic 
sectors along the Southern Border. This sector has the second-largest 
number of Border Patrol agents assigned to it, only behind Tucson.
    We also have a large contingent of Texas Department of Public 
Safety personnel assisting the Border Patrol, and I know that our local 
law enforcement officials are engaged in keeping our communities secure 
along this stretch of the border. In addition, the Texas National Guard 
has an on-going border security mission ever since former Governor Rick 
Perry deployed 1,000 Guardsmen to the Texas-Mexico border in 2014.
    To say that the border is lawless is a lie.
    Deploying National Guard personnel to the Southern Border is not 
new but the circumstances for this deployment are unusual. Facts and 
context matter despite the administration's repeated attempts to frame 
them in a way that justifies its misguided and inhumane policies.
    As you can see in this graph, there were 70 percent fewer 
apprehensions in March 2018--a month before President Trump's order--
than in the month before President Bush's 2006 mobilization. In 2006, 
U.S. Customs and Border Protection had 50 percent fewer Border Patrol 
agents on-board than we have today, and the average agent apprehended 
approximately 97 people per year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For context, in 2017 the average Border Patrol agent apprehended 
less than 20 people per year across all Northern and Southern Border 
sectors. To say that immigrants are overrunning our border is a lie.
    The purposes for the prior two deployments were also different than 
the one launched earlier this year. During Operation Jump Start, the 
Bush administration was in the midst of hiring and training thousands 
more Border Patrol agents, and once staffing levels increased by 40 
percent, the operation ended in 2008. Operation Phalanx was launched in 
2010 when cartel violence on the Mexican side was rising and the threat 
of spillover violence was a serious concern.
    Today, apprehension levels are at the lowest levels we have seen 
since the early 1970's and the threat of border violence is less. The 
purposes for this new deployment are purely reactionary and political. 
Let's remember that in early April, the President was reacting 
impulsively to backlash from the far-right about the spending bill he 
had just signed that had less than the $25 billion he wanted for his 
boondoggle border wall.
    DHS had also just reported that apprehension levels were rising as 
they typically do in the early spring months. Keep in mind that more 
than one-third of apprehensions along the Southwest Border in the first 
5 months of fiscal year 2018 were of unaccompanied children and 
families. We know that these individuals often seek out Border Patrol 
agents in order to request asylum or other humanitarian aid.
    The White House and the rest of the administration spun itself up 
into a frenzy over the so-called ``caravan,'' and the President 
announced his intention to militarize our border. DHS and DOD then had 
to scramble to pull together this deployment in the following weeks.
    Around that same time, the administration began to criminally 
charge apprehended adults, separate families without a thought to 
reunification, and obstruct people legally seeking asylum at our ports 
of entry.
    The reasons for this new National Guard deployment and harsh 
immigration policies had to be overblown, and the chaos that the 
administration was claiming as justification was fabricated. Clearly, 
mobilizing the National Guard to support CBP operations can be done 
with a clear purpose and strategy. This does not seem to be the case 
this time around.
    I thank our witnesses for joining us today, but I fear that your 
time and resources are being misspent on a deployment that may be 
nothing more than political show.

    Ms. McSally. The gentleman yields back. Other Members of 
the committee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 24, 2018
    I believe this most recent deployment of the National Guard to our 
Southern Border has left many of us with more questions than answers. 
This is no surprise given that the rationales for many actions the 
Trump administration has taken in the name of border security over the 
past 18 months do not align with facts. Ever since this deployment was 
announced, Members of Congress have been trying to find out what 
exactly prompted it and other critical details about its mission.
    For instance, did DHS conduct some type of assessment that 
identified a new National Guard deployment as a necessity? Is there a 
strategy and plan in place for this deployment? How long will the 
deployment last? How much will it cost? These are basic questions that 
my colleagues and I are still waiting to have answered.
    In April of this year, Ranking Member Vela and I along with other 
Ranking Members wrote to Secretaries Nielsen and Mattis asking for 
information about the latest deployment of the National Guard to the 
Southwest Border. In response to a question about whether DHS had 
previously determined National Guard support was a necessity, DHS 
pointed to President Trump's memorandum as the reason for the 
deployment.
    This answer leads me to believe that DHS and the DOD were caught 
off guard and either did not plan in advance or had to rush on-going 
planning to meet the White House's directive.
    The apparent lack of an assessment is especially startling in light 
of DHS's own data. Before Operation Jump Start in 2006, Border Patrol 
reported well over a million apprehensions a year. Last year, in 2017, 
the Border Patrol apprehended less than 310,000 people--one-third of 
what the apprehension rate was more than a decade ago.
    DHS's own data shows that overall apprehension levels along the 
U.S.-Mexico border are at the lowest levels we have seen in more than 
40 years.
    As Ranking Member Vela previously stated, the border is not 
lawless, as the President has argued repeatedly. Law enforcement 
personnel at all levels of government are active in the region and at 
levels that are higher now than in previous years.
    In addition to the lack of an assessment, the administration has 
not provided answers about the estimated cost of the current operation, 
where the money will come from, and whether funding will have to be 
taken from other priorities to pay for these operations.
    Six years ago, this very subcommittee held another hearing on 
previous National Guard deployments to the border. Major General John 
Nichols, here today, testified at that hearing, along with the 
Government Accountability Office, that the two previous National Guard 
deployments to the border cost roughly $1.35 billion, a substantial 
amount of money.
    The funds for the current deployment will have to come from 
somewhere within the Department of Defense and will presumably affect 
other National security interests.
    Compounding the absence of cost information is the lack of a time 
frame or end date for the deployment. The President and both 
Secretaries stated in early April that this deployment will continue 
until the ``border is secure.'' But, what metric is this administration 
going to use to measure this vague goal?
    This goal is an open question this committee has wrestled with for 
years, and I would like to know how the Trump administration intends to 
define a ``secure border.'' Are States, such as Texas and Arizona, 
expected to keep their Guardsmen permanently deployed on border 
security support missions? If so, that will likely have very serious 
budget and readiness implications for our military and National Guard 
as a whole.
    Smart, effective border security strategies have always been and 
will continue to be a bipartisan goal. However, given the politically 
motivated and reactionary way this administration has approached border 
security, I have serious doubts that a well-thought-out strategy, or at 
least consideration of second- and third-order consequences of rushed 
decisions, are driving any of it.
    A hasty and poorly designed deployment will have unintentional 
repercussions and negative effects not only on our border communities, 
but on our National security as well.
    Though I remain opposed to this current deployment, I thank the 
witnesses for agreeing to testify before us today. I know you are 
primarily tasked with the operational aspects of this deployment, but I 
hope you are able to provide a clearer picture of the strategy guiding 
your actions on the Southern Border.

    Ms. McSally. We are pleased to have three distinguished 
witnesses before us today. Chief Rodolfo Karisch is the chief 
patrol agent for Tucson Sector and commander of the Joint Task 
Force West Arizona. In this position, Chief Karisch leads more 
than 3,900 agents and crucial support staff in one of the 
busiest Border Patrol sectors in the Nation. Excuse me, and 
that is where I represent.
    Chief Karisch brings more than 33 years of law enforcement 
experience to the Tucson Sector. Prior to joining Border Patrol 
in 1986, he served at the El Paso Texas Police Department 
starting in 1983. Major General John Nichols was reappointed to 
be the adjutant general of Texas on March 17, 2016 where he 
commands almost 25,000 soldiers and airmen of the Texas 
Military Department.
    General Nichols reports to the Texas Governor regarding the 
Texas Army National Guard, Texas Air National Guard, and the 
Texas State Guard. He received his bachelor of science in 
aeronautical engineering for the U.S. Air Force Academy and 
graduated from U.S. Air Force Squadron Officer School, Air 
Command, and Staff College at War College and the Fighter 
Weapons Instructor School.
    Major General Michael McGuire is the adjutant general to 
Arizona and the director of the Arizona Department of Emergency 
and Military Affairs. In this role, General McGuire is 
responsible for managing Arizona's Army and Air National Guard 
joint programs along with the Division of Emergency Management. 
He is in command of 8,000 members ranging--ranging from Federal 
military and civilian personnel to State employees. General 
McGuire was commissioned in the U.S. Air Force, at the U.S. Air 
Force Academy. Oh, we got three academy grads in the room, in 
1987.
    The Chair now recognizes Chief Karisch for 5 minutes to 
testify.

   STATEMENT OF RODOLFO KARISCH, CHIEF PATROL AGENT, TUCSON 
    SECTOR, U.S. BORDER PATROL, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Karisch. Thank you, Chairwoman McSally, Ranking Member 
Vela, and distinguished Members of the subcommittee. Thank you 
for the opportunity to appear before you today on behalf of 
U.S. Customs and Border Protection.
    I have served as a Border Patrol agent for more than 30 
years and I am honored to currently serve as the chief patrol 
agent for Tucson sector. It is one of the busiest in the 
Nation. In my experience on the front lines, I have seen the 
threat that an unsecured border presents to our country and to 
its people. I have seen smuggling and trafficking organizations 
with zero regard for human life. I have seen flood of narcotics 
coming across our border and I have seen the dangerous 
criminals attempting to infiltrate our communities.
    Furthermore, I have seen what works to secure our borders 
and I have seen what does not. I know that having the support 
of committed and dedicated National Guardsmen gives our agents 
much-needed help while we work to increase our staffing in CBP. 
There is more to border security than conducting patrols and 
inspections. Many important jobs are behind the scenes. For 
example, there are surveillance systems to monitor, fences to 
repair, vegetation to clear and intelligence reports to analyze 
to name just a few. All of these jobs are important to 
operational control of the border. But not--but our officers 
and agents cannot simultaneously carry out these jobs and our 
law enforcement mission.
    That is the purpose of Operation Guardian Support, to 
provide additional personnel in support capacity, so more of 
our agents can do important front-line work we need to protect 
our Nation. On April 4, 2018, President Trump called on the 
Department of Defense to expand their existing support of CBP's 
border security mission. This has benefited CBP significantly.
    Under Title 32 National Guard forces are supporting DHS 
pursuant to the order of the President and Title 32 status 
National Guard forces are ordered to duty by their respective 
State Governors and remain under the command and control of the 
State Governors. I would personally like to thank the Governors 
who have deployed National Guard personnel in support of this 
operation and our border security mission. I would also like to 
thank the adjutant generals for their continued coordination 
and cooperation with CBP.
    Solutions like Operation Guardian Support are not new. The 
Department of Defense and Department of Homeland Security have 
long enjoyed a cooperative partnership and CBP's relationship 
with the National Guard in particular is several decades long. 
National Guard personnel support our Border Patrol office, the 
Office of Field Operations and our air and marine operations 
components. Their assistance increases our ability to detect, 
deter, and respond to threats of all kinds including drugs, 
weapons, illegal aliens, and possible terrorists, all while 
helping CBP facilitate legitimate trade and travel.
    Since Operation Guardian Support began in April, the 
National Guard has contributed to thousands of apprehensions, 
the seizure of thousands of pounds of dangerous drugs and 
multiple resources. To be clear, in Operation Guardian Support, 
National Guard personnel do not conduct law enforcement 
activities and do not have direct contact with migrants. 
However, their support accelerates improvements to border 
security while CBP hires, trains, and equips additional 
personnel.
    For example, in my home sector of Tucson, National Guard 
personnel assigned to the Ajo Border Patrol Station helped 
vehicle mechanics complete an inspection of the station's 
fleet. During the inspection, the National Guard mechanics 
identified and repaired more than 80 vehicles with suspension 
issues that could have led to significant safety hazards for 
the Border Patrol agents patrolling in isolated areas. Without 
the National Guard, it would have taken weeks to repair that 
many vehicles. With the Guard's help, however the inspection 
and repairs were completed in 2 days.
    As the CBP continues to surge, hire more front-line CBP 
agents and officers, acquire new technology, and to bill at the 
border wall system, the National Guard is helping us close 
security gaps and improve our National security. Operation 
Guardian Support makes our community safer and our country more 
secure, and I see the impact of these efforts every day.
    Thank you for the opportunity to testify before you today 
and I look forward to your questions.
    [The prepared statement of Mr. Karisch follows:]
                 Prepared Statement of Rodolfo Karisch
                             July 24, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today on behalf of U.S. Customs and Border Protection (CBP).
    As the chief patrol agent of U.S. Border Patrol's Tucson Sector, I 
have seen the consequences of unsecured borders first-hand. I have seen 
the inhumane results of human smuggling and human trafficking. I have 
seen the flood of narcotics coming across our border. I have seen 
dangerous criminals attempting to infiltrate our communities. I know 
that an unsecured border threatens our country and our communities--and 
that operational control of the border is a matter of National 
security.
    After a 45-year low in the number of apprehensions at the border, 
we have seen an alarming increase in apprehensions over the past year, 
and a shift in the demographics of those attempting illegal entry. In 
support of CBP's efforts to attain operational control of our borders, 
on April 4, 2018, President Trump directed the U.S. Department of 
Defense (DOD) to expand its existing support of CBP's border security 
mission.
    DOD is supporting the Department of Homeland Security (DHS) with 
National Guard personnel. These National Guard personnel are operating 
in support of DHS pursuant to the authorization of the President. With 
this authorization, National Guard personnel volunteer and are then 
ordered to duty by their respective State Governors and remain under 
the command and control of the State Governors. I would like to thank 
the Governors who have deployed National Guard personnel in support of 
this critical security mission.
                            cbp and the dod
    At CBP, we are committed to building and strengthening partnerships 
across the Government--it is one of Commissioner McAleenan's strategic 
priorities. As such, we are committed to working closely with our 
partners at DOD, united by the common purpose of keeping the United 
States and its people safe and secure.
    This working relationship between CBP and DOD--and with the 
National Guard--is not new. DOD's U.S. Northern Command, U.S. Southern 
Command, and U.S. Indo-Pacific Command already support our border 
security missions. National Guard personnel have provided support--such 
as counternarcotic operations and training mission sets--in areas 
including Tucson, Yuma, and West Texas for decades. These operations--
which are not a part of the effort announced in April--have specific 
objectives, scope, and areas of focus, and will proceed as planned. 
While these efforts are valuable to our overarching mission, they are 
not of the capability or duration that CBP requires to achieve 
operational control of the border.
    Previous administrations also directed DOD to authorize the use of 
National Guard personnel to temporarily support CBP. National Guard 
personnel have assisted CBP by providing aviation, operational, 
logistical, and administrative support in Operation Jump Start from 
2006 to 2008, and again in Operation Phalanx from 2010 to 2016.
    Specifically, during Operation Jump Start, National Guard personnel 
provided interim surveillance and reconnaissance (air, ground, 
satellite imagery), linguist, air and ground transportation, 
engineering (fences and roads), and logistics (medical, temporary 
shelters, and food service) support to CBP while CBP recruited, 
trained, and deployed additional agents. This interim support increased 
situational awareness that led CBP to more than 173,000 arrests, the 
rescue of 100 people, and the seizure of more than 300,000 pounds of 
drugs. National Guard units built more than 37 miles of pedestrian 
fence, more than 85 miles of vehicle fence, and more than 18 miles of 
new all-weather roads. In addition, National Guard units repaired 
nearly 700 miles of roads. But most importantly, Operation Jump Start 
contributed to a significant decrease in illicit trafficking activity 
in many areas of the border.
                       operation guardian support
    CBP is making significant efforts to attain operational control, 
including taking decisive action to meet our hiring goals and improve 
our recruitment and hiring processes. Border security is a complex 
mission, with infrastructure, personnel, and technology components. It 
is more than patrolling. For example, there are surveillance systems to 
monitor, fences to repair, and intelligence reports to analyze--to name 
just a few.
    In Operation Guardian Support, National Guard personnel are 
providing temporary air support in the form of light and medium lift 
helicopters; infrastructure support, such as road maintenance and 
vegetation clearing; operational support, such as fleet maintenance and 
repair and law enforcement communications assistance; and surveillance 
support as surveillance camera operators.
    To be clear, National Guard personnel do not conduct law 
enforcement activities and do not have direct contact with migrants. 
However, they are providing tremendous assistance to CBP. National 
Guard support accelerates improvements to border security while CBP 
hires, trains, and equips additional personnel. By taking on these 
important supporting tasks, such as infrastructure repair or 
surveillance assistance, these National Guard personnel enable Border 
Patrol agents to focus on law enforcement activities at the border.
    In addition to supporting Border Patrol personnel, National Guard 
personnel also support CBP's Office of Field Operations personnel by 
providing surveillance and operational support at ports of entry, 
including support in cargo inspections and non-intrusive inspections. 
Simply put, having National Guard personnel assist CBP at our ports of 
entry expands our labor pool and, as a result, increases our ability to 
detect, deter, and respond to threats of all kinds, including drugs, 
weapons, illegal aliens, and possible terrorists, while helping CBP 
facilitate legitimate trade and travel.
    National Guard personnel also support Air and Marine Operations, 
the CBP component that conducts tactical aviation and maritime 
operations to strengthen overall security along the Southwest Border. 
National Guard support helps augment these operations by providing more 
aircraft and performing operational support functions. This puts more 
pilots, aircrew, and aircraft into the field to support our security 
mission.
    Additional aerial surveillance resources also increase the security 
of our front-line agents and officers. As Laredo Sector Assistant Chief 
Patrol Agent Gabriel Acosta noted, ``Agents are often forced to work 
alone and in remote areas. The aerial surveillance [the National Guard] 
provide[s] allows us to have more awareness along the border and keep 
the agents on the ground safe.''
                          making a difference
    Since Operation Guardian Support began in April, CBP has carried 
out thousands of apprehensions, seized thousands of pounds of dangerous 
drugs, and performed multiple rescues.\1\
---------------------------------------------------------------------------
    \1\ Effective July 4, 2018, approximately: 9,546 apprehensions; 
2,915 turn-backs; 11,531 lbs. marijuana seized; 17 lbs. cocaine seized; 
.05 oz. heroin seized; 7 lbs. methamphetamine seized; 48 conveyances 
seized; $288 USD currency seized.
---------------------------------------------------------------------------
    In May, Border Patrol agents in the San Diego Sector arrested a 31-
year-old woman on Interstate 15 for transporting 51 bundles of 
methamphetamine inside her vehicle. After the woman's vehicle was 
seized and transported to a secure facility, the vehicle underwent a 
routine post-seizure inventory procedure. Under the oversight of Border 
Patrol, a National Guardsman performing paralegal administrative 
duties--who had recently come on duty as part of Operation Guardian 
Support--noticed an anomaly in a door panel that led to the discovery 
of 11 additional bundles of methamphetamine deeply concealed in the 
vehicle. The bundles added more than 13 pounds of methamphetamine to 
the seizure, which totaled more than 68 pounds with an estimated street 
value of $206,000.
    In June, Border Patrol agents from the McAllen Station in Texas 
received information from Mexico's emergency call center regarding a 
lost Mexican national in distress. Border Patrol agents operating an 
aerostat camera located the lost migrant, who was suffering from 
dehydration. The Border Patrol agents provided coordinates to a nearby 
Texas Army Nation Guard helicopter pilot who was working under 
Operation Guardian Support. Minutes later, the National Guard pilot 
located the subject and quickly guided Border Patrol agents to the 
location. There, a Border Patrol agent who is a certified Emergency 
Medical Technician treated the lost Mexican national for dehydration.
    In my home sector of Tucson, National Guard personnel attached to 
the Ajo Border Patrol Station provided vehicle mechanics to help 
complete an inspection of the station's fleet. During the inspection, 
the National Guard mechanics identified and repaired more than 80 
vehicles with suspension issues that could have led to significant 
safety hazards for Border Patrol Agents patrolling in isolated areas. 
As the Ajo Station Fleet Garage Supervisor Rich Barton said, 
``Logistically speaking, an issue like this could have caused a major 
nightmare for our garage staff. But with National Guard members 
helping, it did not affect our fleet readiness. National Guard 
personnel helped us complete the inspections and repairs within 2 days. 
Without the Guard, it would have taken weeks to resolve the problems.''
    While there are many other examples of the outstanding work enabled 
by the National Guard's assistance, I have one more to share from Eagle 
Pass, Texas, where a National Guardsman was instrumental in the safe 
return of a 3-year-old child after a parental abduction. Shortly before 
8 o'clock a.m. on May 31, Border Patrol agents at the Eagle Pass 
Station received an Amber Alert issued by the State of Coahuila, 
Mexico. The Amber Alert noted that the 3-year-old boy had been taken by 
his non-custodial father and was possibly in danger. Approximately 2 
hours later, a member of the Texas National Guard was monitoring 
transmissions from camera towers near the Eagle Pass port of entry when 
he spotted a man and a child who had crossed the Rio Grande River. 
Border Patrol agents took both into custody and, after processing, 
determined that the boy was the child identified in the Amber Alert. 
The boy was turned over to the Mexican Consulate and reunited with his 
mother.
    As each of these examples illustrate, CBP and National Guard 
personnel continue to work together to align resources that best fit 
the needs of each sector, further enhancing the security and safety of 
our Nation.
                               conclusion
    Border security is National security--there is no difference. CBP's 
decades-long partnership with the DOD and the National Guard allows us 
to execute our mission to protect the United States from the ever-
evolving threats we face, including drugs, weapons, illegal aliens, and 
terrorists. As CBP continues to surge hire more front-line CBP agents 
and officers, acquire new technology, and develop the border wall 
system, the National Guard is helping us close security gaps and 
improve our National security. Operation Guardian Support makes our 
communities safer, and our country more secure--and I see the impact of 
these efforts every day.
    Thank you for the opportunity to appear before you today. I look 
forward to your questions.

    Ms. McSally. Thank You, Chief Karisch. The Chair now 
recognizes General Nichols for 5 minutes to testify.

STATEMENT OF JOHN F. NICHOLS, ADJUTANT GENERAL, TEXAS NATIONAL 
                             GUARD

    General Nichols. Good afternoon, Chairwoman McSally, 
Ranking Member Vela, and Members of the subcommittee. I am 
Major General John Nichols, adjutant general of Texas--the 
Texas National Guard and Texas Military Department comprises 
24,000 army air civilians and volunteers working all across the 
State. We respond to Texas in times of need and also the 
Nation.
    We help it with border security, helping DPS, helping 
Department of Homeland Security, Customs and Border Protection. 
We also help the Texas Department of Emergency Management 
fighting fires and most notably, Hurricane Harvey. We also 
participated in Irma and Maria as Harvey settled and we could 
lend our help to our fellow States. General Joe Lengyel, Chief 
National Guard Bureau, is also a Texan. He will tell you and I 
agree that our main mission is the defense of America. We 
support America's Air Force and America's Army, fighting 
America's Wars.
    Our ability to train, deploy, and support the warfighter is 
our No. 1 role. That is the reason why we exist and that is why 
we are funded through Federal funding for our existence. Texas 
National Guard has also always deployed when asked. Since 2001 
we have deployed over 30,000 of our 24,000 members.
    The second mission is to secure the homeland and protect 
our communities from whatever that may hit us including man-
made terrorism, border security, or natural disasters. We 
fulfill this every mission every single day. Currently, we have 
2,300 members deployed supporting America overseas. We have 
members on the border. We have members supporting counterdrug 
and we have people fighting fires as we speak. Earlier this 
year, President Trump authorized as part of this effort for 
Federal troops up to 4,000-strong National Guard personnel 
along the border.
    Governor Abbott committed immediate support of a thousand 
troops and we immediately deployed 250 along the Texas-Mexico 
border under Operation Guardian Support. That started on April 
6 and we have continued. We are no stranger to the border. We 
have been in support of the State and the Nation securing the 
border for many, many years and will continue as long as asked 
to do that mission. We perform a variety of roles including 
motor vehicle operations, logistic support, security 
monitoring, administrative services, which enables the Border 
Patrol agents to get back on the border where they are most 
effective.
    Guardsmen are expertly trained in surveillance, 
reconnaissance, logistics, aviation, criminal analysis, 
linguistics, support, and other advanced specialties. So we use 
our military duties to help support Border Patrol. The Texas 
National Guard has unique resources and equipment to support 
our civilian partners, including the UH-72 Lakota with a 
mission enhancement package. We are also employing the RC-26 in 
Texas. We have 11 Lakota helicopters and we are supported by 
Mississippi, Alabama, Georgia, South Carolina, Oklahoma, and 
Florida currently. I would like to personally thank those 
partner States for coming to our aid. We have flown 994 hours 
so far on--during border operations.
    Guardsmen assigned to Operation Guardian Support are 
activated under Title 32 status. Currently the 72d Infantry 
Brigade Combat Team based out of Houston is in charge of the 
overall operation force under the full support and command of 
Governor Abbott.
    We deployed--when we deployed, we were sent to the 
Southwest Border and we sent complete units and ready units as 
opposed to pieces parts. So we mobilized a battalion that was 
stationed already in El Paso and a battalion that was stationed 
in the Rio Grande Valley. We will swap those commands out as 
time goes on. But we are still supporting floods and fires. As 
a matter of fact, the unit that was in Rio Grande Valley came 
off station and supported Texas citizens during the recent 
floods we had about 2 weeks ago, saved many lives and went back 
to work.
    Whenever our Nation has been threatened by external dangers 
or suddenly plunged into war, the National Guard has helped to 
secure and maintain security and safety of the homeland. Our 
skills and capabilities gained from combat and our civilian 
careers help us respond to domestic threats, such as chemical, 
biological, radiological, and nuclear attacks, even large-scale 
disasters and the new frontier, cyber attacks. The skillsets of 
Guardsmen are strengthened by these missions. We also bring 
that skillset to the Border Patrol.
    That concludes my statement and I am ready for any 
questions. Thank you.
    [The prepared statement of General Nichols follows:]
                      Statement of John F. Nichols
                             July 24, 2018
    Good morning Chairwoman McSally, Ranking Member Vela, Members of 
the committee. My name is Major General John F. Nichols, the adjutant 
general of Texas.
    The Texas National Guard and Texas Military Department is comprised 
of over 24,000 soldiers, Airmen, civilian employees, and volunteers 
living and working across the State. We are Texans and we respond to 
Texas and the Nation in times of need; through border security in 
support of the Department of Public Safety, Department of Homeland 
Security, and Customs and Border Protection (CBP)--wildfire suppression 
in support of the Texas Department of Emergency Management and the 
Texas Forestry Service--or most notably, in response to Hurricanes 
Harvey, Irma, and Maria along our coasts. As always we stand ready to 
support when called.
    General Joseph Lengyel, Chief, National Guard Bureau (and also a 
Texan) will tell you, and I agree with him, that the National Guard's 
primary mission is to support the Army and the Air Force in fighting 
America's wars. Our ability to train for, deploy to, and support the 
warfight, is our No. 1 role, the No. 1 reason why we exist, and why the 
United States funds us with Federal dollars. The Texas National Guard 
has always deployed when asked. Since 2001 over 34,000 Texas Guard 
soldiers and airmen have answered our Nation's call overseas.
    The second mission of the National Guard is to secure the homeland 
and protect our communities from whatever disaster might hit, whether 
it's man-made terrorism, border security, or natural disasters. The 
Guard fulfills this mission every single day across the 54 States and 
territories and the District of Columbia.
    The Guard's third mission is to build partnerships at the local, 
State, Federal, and international level. Those partnerships enable both 
our warfighting and homeland missions, and demonstrate our value to the 
Nation.
    As we sit here today, over 2,300 Texas Guardsmen are deployed to 
locations across the globe in the warfight. In addition to our overseas 
service members, over 1,200 Texas Guardsmen are deployed to the 
Southwest Border, securing the homeland.
    Earlier this year, President Trump authorized, as part of this 
effort, Federal funds for up to 4,000 National Guard personnel along 
the entire U.S.-Mexico border. Governor Greg Abbott committed immediate 
support of 1,000 troops from Texas. Texas Guardsmen act as a force 
multiplier to Federal, State, and local law enforcement working to 
secure the Texas-Mexico border. CBP's Operation Guardian Support (OGS) 
officially kicked off on April 6, 2018 with the first wave of 250 
activated Texas Guardsmen. The Texas National Guard is no stranger to 
the border and has served there in support of State and Federal partner 
agencies for decades.
    Texas Guardsmen perform a variety of support roles including motor 
vehicle operations, logistics support, security monitoring, and 
administrative services, enabling United States Border Patrol agents to 
return to the field in a law enforcement capacity and build additional 
capacity to improve operational efficiency. Guardsmen are expertly 
trained in surveillance and reconnaissance, logistics support, 
aviation, criminal analysis, linguistic support, and other advanced 
specialties and systems. The Texas National Guard has unique resources 
and equipment to support our civilian partners, including its UH-72 
Lakota helicopter and RC-26 fixed-wing aircraft.
    Guardsmen are deployed to support the needs of the CBP Sector 
Chiefs along the 5 CBP sectors along Texas' Southwest Border, from the 
Rio Grande Valley to El Paso.
    Texas Task Force aviation currently along the Texas border includes 
11 Lakota helicopters. Six States, in addition to Texas, are supporting 
with aviation assets, to include Mississippi, Alabama, Georgia, South 
Carolina, Oklahoma, and Florida. I want to personally thank these 
partner States for accepting the mission to enhance border security. 
Task Force Aviation has flown a total of 994.9 hours \1\ since the 
beginning of this mission.
---------------------------------------------------------------------------
    \1\ Numbers current as of 1200, 20 July 18.
---------------------------------------------------------------------------
    Guardsmen assigned to CBP's Operation Guardian Support are 
activated under title 32 duty status, allowing the Governor to maintain 
command and control of his Guard force. Currently, the 72d Infantry 
Brigade Combat Team based in Houston has command and control of Texas' 
CBP OGS mission, behind the full support of Governor Abbott.
    Texas Guardsmen deployed on OGS were sent to the Southwest Border 
as complete, ready units. I made the choice to involuntarily deploy 
these soldiers on 179-day orders, treating this mission like another 
deployment. Units were selected strategically at the headquarters 
level, in order to ensure that units maintain readiness for overseas 
missions and remain prepared to respond to fires, floods, or hurricanes 
when called upon by Governor Abbott.
    Whenever the Nation has been threatened by external dangers or 
suddenly plunged into war, the National Guard has helped to restore 
security and safety by defending the homeland. Guardsmen use their 
skills and capabilities gained from combat and their civilian careers 
to respond to domestic threats such as chemical, biological, 
radiological, and nuclear attacks, large-scale natural disasters, and 
in the new frontier, cyber attacks. The skill sets of our Guardsmen are 
strengthened by the diverse deployments we have experienced on State 
and Federal missions. We remain prepared to support Texas and the 
Nation, ready to respond when called.

    Ms. McSally. Thanks, General Nichols. The Chair now 
recognizes General McGuire for 5 minutes to testify.

  STATEMENT OF MICHAEL T. MC GUIRE, ADJUTANT GENERAL, ARIZONA 
                         NATIONAL GUARD

    General McGuire. Chairwoman McSally and Ranking Member 
Vela, Members of the subcommittee, thank you so much for this 
opportunity today. On behalf of Governor Doug Ducey, I am proud 
to represent the great State of Arizona and the 7,800 members 
of the Arizona National Guard. Rather than reading my statement 
I have submitted for the record, a written statement, I would 
like to say as an opening remark, a little bit of difference 
between us and Texas just in terms of size.
    As John mentioned, he has nearly 24,000 Guardsmen. We have 
just 7,800 Army and Air Guardsmen in the State currently tasked 
for 657 of those to support the border as well as having about 
a thousand of our soldiers and airmen currently tasked for 
overseas missions in Afghanistan and Iraq. So, a large 
percentage of that. Similar to Texas, we are doing all this 
under the Title 32 Authority. We appreciate the support of 
Homeland Security and Department of Defense to fund what we 
believe is a Federal mission and that Border Security is a 
National security issue.
    We are also very, very happy that this is the first of the 
three times that we have done this mission that DHS has 
incorporated the Joint Task Force concept. So Chief Karisch who 
proudly represents Tucson Sector is also the JTF-West combined 
forces commander. So, I look at our role in the Arizona 
National Guard as being the supporting command to the supported 
Joint Task Force commander.
    So we simply deliver in this case 657 soldiers and airmen 
based on specific requests for assistance in areas from 
aviation to security analysts, to transportation, engineering, 
or whatever the support requirements are to allow them to surge 
badges to the border, and we will continue to do that through 1 
October of this year. Significant challenges as I see going 
forward is the end of the fiscal year in terms of funding, how 
the mission will be handled going into the next fiscal year.
    And was previously mentioned in your remarks, Chairwoman 
McSally, while we are using RC-26 and the Lakota, there are 
other rotary-wing and remotely-piloted systems like MQ-9 and 
Apache that could be used in night low visibility to help 
support our Customs and Patrol, Customs and Border Patrol 
agents out of the normal day-time cycle.
    But beyond that, I stand ready to answer your questions and 
thank you for the opportunity to be here today.
    [The prepared statement of General McGuire follows:]
                    Statement of Michael T. McGuire
                             July 24, 2018
                              introduction
    Good afternoon Chairwoman McSally, Ranking Member Vela, and 
distinguished members of the subcommittee. My name is Major General 
Michael T. McGuire, and I am the adjutant general of Arizona and 
director of the Arizona Department of Emergency and Military Affairs 
(DEMA). I appreciate the opportunity to appear before you today on 
behalf of the 7,800 citizen soldiers and airmen of the Arizona National 
Guard to discuss our mission to support the U.S. Department of Homeland 
Security as well as our other local, State, and Federal partners 
through a whole-of-Government approach to address the various 
transnational issues that impact our borders.
    From the Pequot War in 1634 to the current Overseas Contingency 
Operations around the globe and Emergency Response Deployments around 
the Nation, this hearing today highlights a mission that the National 
Guard has capably executed for the past 384 years. The National Guard 
is the modern-day militia, and has a long and honored history of 
service to the country. Although the present-day National Guard was 
established with the Militia Act of 1903, the National Guard's heritage 
can be traced back to the first State-run militia regiments established 
by the General Court of the Massachusetts Bay Colony in 1636. Since 
that day, the National Guard has remained ready to answer the Nation's 
call during times of emergency and conflict. In honor of that great 
tradition, soldiers and airmen of the Arizona National Guard continue 
to stand ready to answer that call.
    The National Guard remains the first choice for homeland defense 
operations, being uniquely trained and situated as the first line of 
support to the Nation's local, State, and Federal first responder and 
law enforcement agencies. Consistent with the citizen-soldier model of 
the early militias, the present-day National Guard is embedded in the 
local communities--policemen and firemen, small business owners, 
carpenters, civil engineers, plumbers, and mechanics. This fact 
provides intangible benefits--not only can the National Guard bring a 
response force with military capabilities but also civilian skills such 
as carpentry, mechanical, civil engineering, and business negotiation, 
but National Guard troops also have home-town familiarity with the 
geographic layout of the affected community, combined with an 
understanding of the most at-risk areas. Put another way, with nearly 
3,300 installations in 2,700 communities around the country, the 
National Guard is America's ``forward-deployed'' homeland response 
force.
           national guard duty statuses enable local support
    Federal and State constitutions and statutes provide the primary 
authority for use of military force by the Federal and State 
governments. These provisions, insofar as they apply to the National 
Guard, reflect the Constitutional balance of power between the 
sovereign States and the central Federal Government. National Guard 
forces are unique among all other military components in that they may 
be used in one of three legally distinct ways:
    (1) by the Governor for a State purpose authorized by State law 
(State Active Duty); or
    (2) by the Governor, with the concurrence of the President or the 
President's designee (e.g., the Secretary of Defense), for shared 
State/Federal purposes or for a primary Federal purpose (Title 32 
Duty); or
    (3) by the President for a Federal purpose authorized by Federal 
law (Title 10 duty).
                       operation guardian support
    In April 2018, President Trump directed the Department of Defense 
(DoD) to support the U.S. Department of Homeland Security (DHS). The 
Secretary of Defense directed the National Guard to employ up to 4,000 
soldiers and airmen to meet this mission set and provide with aviation, 
reconnaissance, operational, and logistical support to enable DHS to 
increase operational control and situational awareness of the region. 
This directive, though not a formal named operation, has been 
informally nicknamed by DHS as Operation Guardian Support (OGS).
    Arizona Governor Ducey ordered the Arizona National Guard to 
support this Presidential Directive, and on April 6, 2018 a planning 
cell within the Arizona National Guard Joint Task Force was activated. 
On April 9, the Arizona National Guard deployed 225 soldiers and airmen 
to various DHS and CBP outposts along the State's border in support of 
this new border mission. An additional 113 soldiers and airmen were 
deployed 2 days later as authorized by National Guard Bureau (NGB). 
Today, there are 657 authorized personnel in Arizona in support of OGS.
    The relationship between the Arizona National Guard and DHS is not 
new, however. For nearly 30 years, the Arizona National Guard has 
worked with various partners across the Federal Government in areas 
along the border, specifically with the National Guard Counterdrug 
program as codified in the 32 USC  112 and through various training 
mission sets of opportunity that present themselves to support both DHS 
and National Guard unit readiness, such as one of our Transportation 
Companies moving concrete barriers from one Customs and Border 
Protection (CBP) Sector to another. In addition, the National Guard has 
supported 3 prior iterations of the border mission by providing 
aviation, operational, logistical, and administrative support in 
Operation Jump Start from 2006 to 2008, and again in Operation Phalanx 
from 2010 to 2016. Only during Operation Jump Start and the first phase 
of Operation Phalanx did the National Guard provide personnel to 
physically patrol the border to support CBP while additional agents 
were recruited, trained, and deployed. I will discuss both of these 
previous operations and our Counterdrug program in more detail in a 
moment.
    The current OGS mission is being accomplished through the 
identification of specific requests for assistance (RFA) by DHS, which 
then passes those RFAs to DoD/National Guard Bureau (NGB) and then to 
the States. These RFAs fill specific functions and duties as mentioned 
earlier--aviation, reconnaissance, operational, and logistical 
support--and the Arizona National Guard is currently filling RFAs at 
all of the border stations within the Tucson and Yuma border sectors in 
Arizona. This iteration of the border support mission is informed by 
our experience with the previous border missions and has evolved based 
on the changing nature of immigration, transnational threats, and 
technology. Many of these RFAs are administrative in nature, which is 
by design to support DHS and allow them to focus on improving 
situational awareness along the border while they recruit, train, and 
deploy additional staff and agents. Personnel authorizations issued by 
NGB are all based on specific RFAs that have been submitted by DHS to 
NGB for support. These RFAs are first validated by NGB and then 
approved as a force authorization. These specific RFAs and force 
authorizations are then passed down to the National Guard of the 
respective State, and working through Arizona's current end-strength 
and that of other States as we meet the mission requests of DHS.
    So there is no misunderstanding, the Arizona National Guard does 
not act in any law enforcement capacity along the border, nor have our 
citizen soldiers and airmen been placed in a position that would come 
into contact with migrants. Although not constrained by the Posse 
Comitatus Act due to Title 32 deployment status, law enforcement is not 
our mission. Further, DHS has never requested the National Guard act or 
assist in a law enforcement capacity in any iteration of these border 
missions, and a long-standing Department of Defense directive 
specifically states that the Guard members will not act in a law 
enforcement capacity. The Arizona National Guard is strictly providing 
support, and, when done right, that support provides a training value 
to our military missions--in particular with the aviation, engineering, 
and ports of entry mission sets. National Guard aviation assets from 
Arizona and other States have provided over 500 flight hours in support 
of OGS and we have identified approximately 30 potential engineering 
projects that would support CBP, all of which contribute to warfighter 
readiness.
    As stated in my opening paragraph, a whole-of-Government approach 
is key. OGS supports DHS as a whole, but currently has only provided 
support to fill RFAs from CBP. The biggest threats along the border are 
not limited to illegal border crossings, but include violence and the 
trafficking of drugs, humans, and weapons. The Southwest Border 
appropriation provided in the fiscal year 2018 DoD budget has allowed 
the Arizona National Guard to place an additional 21 soldiers and 
airmen on orders to support other local, State, and Federal law 
enforcement agencies. Locally developed partnerships like the Arizona 
Alliance to Combat Transnational Threats is a model for local, State, 
and Federal law enforcement coordination. As proof of this whole-of-
Government success, we offer the Arizona National Guard Counterdrug 
mission which partners with over 70 local, State, and Federal law 
enforcement agencies. In our domestic role, the National Guard is 
always in support of another agency, whether it is responding to an 
emergency, combating transnational crime, or supporting greater 
operational control and situational awareness of the border region. 
Operation Guardian Support is another opportunity to provide whole-of-
Government support to our local, State, and Federal partners.
  current arizona national guard partnerships--counterdrug task force
    Through the Arizona National Guard Counterdrug Task Force, we 
partner with over 70 local, State, and Federal law enforcement 
agencies. Authorized by the National Defense Authorization Act in 1989 
under 32 USC  112, the National Guard Counterdrug Program authorizes 
up to 4,000 National Guard members to perform drug interdiction and 
counterdrug activities in all 54 States and territories. The Arizona 
National Guard's Counterdrug program, referred to as the Counterdrug 
Task Force, began operations in 1989 and is currently the third-largest 
behind California and Texas. The mission of the Counterdrug Task Force 
is based in law and provides military counterdrug and drug demand 
reduction support to local, State, and Federal law enforcement agencies 
and community-based organizations. For the past 29 years, the highly-
skilled soldiers and airmen of the Counterdrug Task Force have provided 
unsurpassed operational counterdrug support, and continue to offer the 
continuity necessary to foster and maintain positive relationships with 
over 70 Federal, State, and local drug enforcement agencies and 
community organizations across the State of Arizona, including: Customs 
and Border Protection, Homeland Security Investigations, Drug 
Enforcement Administration, Federal Bureau of Investigation, Arizona 
High-Intensity Drug Trafficking Area Center, Arizona Department of 
Public Safety, Arizona Counter-Terrorism Information Center, Metro 
Intelligence Support and Technical Investigation Center, Arizona 
Alliance to Combat Transnational Threats, USNORTHCOM, Joint Task Force-
North, and various county and city law enforcement agencies.
    Serving in full-time National Guard Duty-Counterdrug status in 
accordance with 32 USC  112, these soldiers and airmen are under State 
control and are not subject to the provisions set forth by the Posse 
Comitatus Act. Counterdrug Task Force members have been given 
authorization to perform ``Support Only'' Counterdrug duties. It is 
this support role that brings the greatest benefit to our partners. The 
Counterdrug Task Force provides specific skill sets in support of 
civilian agencies, enhancing their capabilities and at the same time 
allowing them to devote their skill sets to their primary mission. 
These skill sets include: Investigative Case and Analyst Support, 
Communications Support, Ground Reconnaissance, Aerial Reconnaissance, 
and Civil Operations, formerly known as Drug Demand Reduction. These 
skills exercised through the Counterdrug Task Force in turn keep 
National Guard members in ready form when they are needed for other 
operations under the Governor's of the President's command.
                      past support to dhs and cbp
    Arizona has a total land area of just over 113,998 square miles and 
is the sixth-largest State in the Union. Arizona has an estimated 
population of well over 7 million. Arizona shares 389 miles of 
international border with Mexico and has 7 major ports of entry. Found 
between Arizona's ports of entry are a variety and combination of 
barriers that include pedestrian fencing, vehicle fencing, Normandy 
barriers, triple-strand barbed wire fencing, and cattle guard crossings 
located on the Tohono O'odham Indian Reservation only. The sovereign 
territory of the Tohono O'odham Nation consumes 75 miles (28 percent) 
of the Arizona/Mexico border. Nearly one-third of this reservation 
extends south directly into Mexico. The Tohono O'odham Nation does not 
acknowledge the international border between the United States and 
Mexico, and residents living on Tribal lands in Mexico can traverse 
freely at any time.
Operation Jump Start (June 2006--July 2008)
    On May 15, 2006, President George W. Bush declared Operation Jump 
Start as a 2-year, $1.2 billion program spread across the four 
Southwest Border States. The mission required 6,000 National Guard 
members the first year, and 3,000 the second year. The Department of 
Homeland Security and Customs and Border Protection were allocated 
forces based on their assessed needs that resulted in Arizona receiving 
40 percent of the forces; the largest percentage of the four Southwest 
Border States. The goal of Operation Jump Start was to augment Customs 
and Border Protection with additional manpower for administrative and 
operational assistance missions, alleviating Border Protection agents 
of these responsibilities and allowing those agents to be sent back out 
to the field where they were needed most. Guard members from 51 of the 
54 States and territories served in Arizona performing duties that 
included Entry Identification Teams, camera operators, logistical 
support, aviation support and engineering support. In total, 17,750 
personnel participated on the mission. These personnel were comprised 
of individual volunteers, sourced unit rotations, and unit annual 
training rotations. During the first year of Operation Jump Start, an 
average of 2,400 National Guard personnel conducted operations in 
support of law enforcement efforts in Arizona. That number was reduced 
to 1,200 personnel during the second year.
Operation Phalanx Phase One (July 2010--February 2012)
    On May 25, 2010, President Obama directed the temporary use of up 
to 1,200 National Guard personnel on the Southwest Border to support 
Department of Homeland Security requirements. Arizona was authorized 
560 of the 1,200 personnel for the mission which equates to 46 percent 
of total mission personnel. Like Operation Jump Start, National Guard 
personnel are funded under U.S. Code Title 32 Sec. 502(f), in 
accordance with the published Department of Defense order. Operation 
Phalanx supports both Customs and Border Protection and Homeland 
Security Investigations by supporting three key mission sets; Entry 
Identification Teams, Video Surveillance System support, and 
Intelligence Analysis.
    Of the 560 personnel initially authorized for Operation Phalanx in 
Arizona, 504 personnel were tasked to support entry identification 
sites that operated on a 24-hour basis in close proximity to Arizona's 
Southern Border. Soldiers and airmen staffed 25 overt Entry 
Identification Team sites across four stations in the Tucson sector. 
Due to increased threat and violence along the international border, 
Arizona National Guard personnel were armed and assumed a higher arming 
status than similar missions during OPERATION Jump Start. Rules for the 
use of force were clearly defined, published, and provided to each 
service member on the mission.
Operation Phalanx Phase Two (March 2012--December 2016)
    In December 2011, the Department of Defense announced National 
Guard personnel supporting the Department of Homeland Security would be 
reduced from 1,200 to no more than 300 personnel and included a change 
in mission. In addition to continuing the intelligence analyst mission, 
the National Guard transitioned from a ground observation role to an 
aerial reconnaissance mission.
               ways to improve operation guardian support
  <bullet> Make OGS and other Domestic Support Missions an officially 
        named operation by DoD to enable accrual of Federal benefits 
        and ability to recruit National Guard members for this 
        voluntary activation.
    <bullet> While informally named by DHS, OGS, and other similar 
            domestic response missions, are not official DoD named 
            operations. Service to an unofficially-named mission, under 
            training authorities, prevents National Guard members from 
            accruing benefits typically provided under Federal service, 
            including credit toward the Post-9/11 GI Bill. The border 
            is a Federal responsibility; therefore, this is a Federal 
            mission that should draw Federal benefits.
    <bullet> Official operation status would improve the ability to 
            source National Guard members Nationally as well.
  <bullet> NGB should work with DHS to identify continuous specific 
        opportunities to meet an RFA through annual training, as 
        NORTHCOM does with reserve or Federal units (e.g., reserves 
        have built a forward operation base for CBP, identified 
        engineering projects could be sourced to States' National 
        Guards to meet training needs). Currently, we are only funded 
        for border activities through 1 October 2018. This makes it 
        impossible to schedule any long lead time activities, like 
        engineering projects, without funding that crosses fiscal year 
        boundaries.
  <bullet> Facilitate CBP's hiring more administrative and logistics 
        personnel. With ``badges'' working these administrative duties, 
        they are prevented from performing law enforcement duties on 
        the border and at stations throughout the region. Additionally, 
        some logistical RFA taskings being fulfilled by National Guard 
        members, such as vehicle maintenance and engineering projects, 
        could potentially be furnished through local contractors until 
        CBP is sufficiently staffed. The National Guard has provided 
        over 10 years of supplementation for these administrative and 
        logistical duties, while a longer-term solution should include 
        hiring both ``badges'' for the border as well as administrative 
        and logistical support personnel.
  <bullet> Improve the cueing for helicopter, light fixed-wing, and 
        lighter-than-air assets. Right now, we are using several 
        hundreds of aircraft across the Southwest Border to detect 
        illegal and illicit activity without any advanced cueing 
        systems. These small infrared and electro-optical resources are 
        somewhat effective by themselves, but are like looking through 
        a soda-straw to try to find resources. The addition of a radar 
        cueing that detects movement can increase the likelihood of 
        successfully finding and tracking activity by tenfold. There 
        are three ways to enhance this mission set:
      (1) Enable our National Guard crews to assist and supplement the 
            CBP's Air and Marine crews flying the DHS MQ-9s that are 
            extremely undermanned along the border until they can 
            organize, train, and recruit to full capacity. At the Fort 
            Huachuca MQ-9 station, for example, CBP's Air and Marine 
            Operations (AMO) is only able to produce 2 of the needed 5 
            flights per day due to crew limitations.
      (2) Authorize use of Air National Guard MQ-9s in domestic 
            operations along the border. CA, AZ, and TX each have 
            Launch and Recovery Elements (LREs) and domestically-
            sourced air frames available for the mission, but the DoD 
            has expressed concerns that the use of these State-side 
            LREs will affect the combat missions. The use of the LREs 
            in AZ and TX are not currently allocated to anything other 
            than peace-time State-side continuation training, and can 
            successfully support domestic border missions if so 
            authorized.
      (3) Enhance the currently utilized RC-26 program with semi-active 
            radar mapping pods. These pods are already used on other 
            military aircraft, and for a small procurement and testing 
            cost would greatly enhance the use of the National Guard's 
            only domestic aircraft mission. We could utilize these pods 
            along the border within just a few months of funding 
            appropriation and authorization.
      (4) Return AH-64 Apache helicopters to the Arizona National 
            Guard. The return of Apache helicopters to Arizona would 
            provide significant night vision capability to the National 
            Guard's aviation support of Operation Guardian Shield.

    Ms. McSally. Thanks, General McGuire. I now recognize 
myself for 5 minutes for questions.
    Look, there are a lot of politics. Obviously, we have seen 
that already today. But as the professionals out in the field 
there, can each of you just give me a quick, you know, has this 
been an important deployment? Do you agree that it is a 
positive thing and it has been a positive impact on border 
security? I will get into more detail questions after that.
    But Chief Karisch.
    Mr. Karisch. I will start by saying yes. As I have told my 
colleagues in the past, any assistance so we can get down on 
that border helps us. I think people seem to look at this as 
simply an immigration manner, which it is not. You are looking 
at still a war here that we are fighting. You have got guns 
coming across the border. You have got cash. You have got 
people. You have got violence down there. So, any assistance 
that we can get is--is welcome, whether it is at the Federal, 
State, local, or Tribal levels. So, we need that help on the 
border.
    Border is a National security issue that we all have to 
apply resources to, and I am grateful for the coordination and 
effort that has gone on with the Guard in being down there to 
support us right now.
    Ms. McSally. Great. Thanks. Again, just I will get into 
more details later. But in general, General Nichols, a positive 
deployment and good for the troops and good for the mission? I 
don't want to put words in your mouth.
    General Nichols. What you said, ma'am, no.
    It has been very positive for us. I was talking to my 
colleagues about the initial deployment. We involuntarily 
mobilized our soldiers. There was a discussion with the 
Governor and I and that worked out fine. We are coming up on 
179 days on mission. We are talking about rotating people out. 
Seventy-five percent of them want to stay. The other 25 have 
jobs they have to get back to. But the rest are so ingrained in 
the mission now, they have been welcomed by Customs and Border 
Patrol and every single mission they have been assigned to. 
They are working as a team with them. So it has been very 
positive. They get to practice some of their military skills, 
and those they don't get to we will pull them off and do some 
annual training like we do and then get them right back in the 
mission without missing a beat.
    Ms. McSally. Great. Thanks. General McGuire.
    General McGuire. Ma'am, I have not received any negative 
feedback from any of the over 350 Arizona Guardsmen deployed. I 
failed to mention in my opening comment, we are receiving 
support as well from Indiana, Missouri, Wisconsin, Maine, 
Kentucky, and Iowa as well.
    Thank you.
    Ms. McSally. Great. Thanks. Chief Karisch, when we were 
down at the border with Secretary Nielsen, you could tell from 
the community down there that they were really looking forward 
to the reinforcements had arrived and, you know, and continuing 
to have that integration with the support of the National 
Guard. Although there were some concerns and questions about 
whether they are being fully utilized in order to free up our 
agents. So can you share just any perspective on that and any 
barriers we might be able to remove so that we can fully free 
up the Border Patrol agents to be at the border?
    Mr. Karisch. The Guard right now is assisting us on various 
fronts, on the aviation side, operations, logistics, and 
administrative support that they are giving us. Critical to--to 
the job that they are doing for us right now is operating 
cameras. They are acting as our eyes and ears, giving us 
greater situational awareness of that border so that we can see 
what is coming. But even with things such as vegetation removal 
in areas down in Nogales where you were at, the Guard down 
there has cleared over five acres of vegetation that makes that 
area a lot easier now as to monitor for our people.
    On the aviation side, the surveillance aircraft that they 
have provided have significant importance to us, but also on 
the rescue side. As you well know in Arizona, during the 
summer, we deploy a lot of our resources toward rescuing people 
who become stranded in the desert. We now have another partner 
in the National Guard who is supporting us in that endeavor. So 
many different examples whether it is in the garage, whether it 
is analyzing the intelligence reports, we definitely are seeing 
a lot of great work between us.
    Ms. McSally. Do you see any barriers to, you know, 
utilizing the Guard to the best capability possible? And 
anything you need that needs to be improved?
    Mr. Karisch. No. I mean I think under different deployments 
they were assigned different duties. I know during Jumpstart 
they had entry identification teams where they were deployed. 
This time it is different. There is no contact with any of the 
migrants that are down on the border. So no challenges from my 
perspective.
    Ms. McSally. OK. Great. I do want to follow up on--thanks 
for sharing both General Nichols and General McGuire.
    There are a lot of misconceptions on people thinking, ``Oh 
well, our troops are--we are in a bit of a readiness crisis 
Nation-wide. We talk about this all the time,'' and our troops 
are basically kind-of wasting their time doing border security 
instead of, you know, honing their skills so they can defend us 
should they need to go deploy. Having served myself in uniform, 
I am always trying to debunk this that when you are out there 
doing real training, when you are fixing real vehicles, when 
you are doing real intel analysis, this actually increases your 
skills. You mentioned that already. I think this is a really 
important message for people to understand. It is not an 
either-or. They are increasing their skills and increasing the 
mission, and I am running out of time.
    But I wanted to stop--stop there. But maybe on my next time 
around I want to hear more about that from both the tags. So, 
thanks.
    The Chair now recognizes Mr. Correa for 5 minutes.
    Mr. Correa. Thank you very much, Madam Chair. First of all, 
I wanted to--Mr. Karisch and Mr. Nichols and Mr. McGuire, can't 
see too well from here, for your service to our country. I am 
out of the State of California where I work very closely with 
General Baldwin out of California National Guard. You are the 
citizen soldiers, so to speak, and I think more and more our 
Nation's defense is entrusted to you. So, thank you very much 
with good work.
    Mr. Karisch, if I may, you have been 30 years of service. 
Thank you as well for your service. You mentioned a minute ago 
that this was an issue not of immigration but terrorism. So, 
let me follow up a quick question. Known or possible 
terrorists, have we apprehended and encountered most of those 
in this Southern Border or the Northern Border?
    Mr. Karisch. I think we have seen them on both sides, 
Congressman, on both borders.
    Mr. Correa. Because testimonies here by folks in your 
Department have said we have encountered more of them in the 
Canadian border than the Southern Border.
    Mr. Karisch. There has been more on the Canadian border, 
but we also have encountered on the Southern Border. I don't 
think we can ever discount the possibility of the location that 
they are going to choose to enter.
    Mr. Correa. But I would say if you are encountering more of 
them in the Northern Border, is that an issue we should 
address? Therefore maybe look at putting the National Guard at 
the Northern Border.
    Mr. Karisch. Well, I think we would welcome any additional 
resources that come to the border. As I indicated previously, 
whether that is Federal State, local, Tribal agencies who can 
help us because at the end of the day the border with Canada is 
much larger. But we also do have a tremendous flow problem on 
the Southwest Border.
    Mr. Correa. So we do have a problem on both borders then?
    Mr. Karisch. I think it is evident. I think you have drugs. 
You have guns. You have people from different countries that 
are flowing across both borders. Yes.
    Mr. Correa. Thank you very much. Sir, Secretary Nielsen in 
Madison, April 6, 2018, they mentioned something to the effect 
that they would opt to end the deployment of the National Guard 
to the U.S.-Mexico border when, ``our Nation's borders are 
secure.'' Any thought what definition of our Nation is borders 
would be secure to end the redeployment of the National Guard?
    Mr. Karisch. Congressman Correa, as I indicated before, I 
think we need to apply every bit and all resources that we have 
available to securing our border. Our borders are far from 
secure. Recently, I had an agent shot down in Arizona 
patrolling the border. So I think the border is dangerous. I 
think there still is significant work that needs to be done 
down there. We have an opioid crisis right now that the country 
is facing.
    So I think we all need to look at it from various fronts of 
the different challenges that we face on the Nation, as a 
Nation.
    Mr. Correa. Thank you very much. I have got a couple of 
minutes left, so very quickly. Follow-up question.
    General Kelly, here when he was Secretary of Homeland 
Security, we had a couple of questions and discussion here 
about what securing the border was all about. I remember him 
saying something to the effect paraphrasing saying, if 
something gets to our border, something negative, the battle is 
lost. You have got to stop those negative elements from even 
coming close to our border. So the question I would go off to 
any of you I would ask is--how are we cooperating with our 
southern and northern neighbors to make sure that this is a 
regional secure situation as opposed to just the wall so to 
speak?
    Mr. Karisch. I will start off----
    Mr. Correa. Thank you.
    Mr. Karisch. Congressman Correa. I will tell you, first of 
all, I have worked very closely with the government of Mexico. 
We now have tremendous relationships with them. I was actually 
assigned to Mexico City years ago as an attache for CBP. So, I 
believe in that relationship.
    I also started a program back in 2013 with the Federal 
Police called a cross-border coordination initiative where we 
did joint patrols. I think the people on both sides of the 
border want the same thing, which is safety, tranquility, and 
livelihood. So we are working together with our partners in 
Mexico to try to do that.
    But as General Kelly also said, we must continue to extend 
that border outward so that we prevent people from ever 
reaching our borders because then it becomes too late. But the 
relationship that we have with Mexico and other countries 
continues to be very strong.
    Mr. Correa. Thank you, gentlemen. Any thoughts?
    General Nichols. Congressman, in Arizona, our focus 
obviously is the Southwest Border and the sovereign territory 
of Arizona as a State. We do have quarterly meetings with 
Sudana and Samura from the Mexican Army and Navy Marine Corps. 
We work that through JTF-North and U.S. Northern Command who 
has the responsibility for, as you mentioned, extending out our 
security beyond what is our physical border at the State line. 
But we have a great working relationship with them. I would say 
that has improved significantly over the last 5 years with them 
helping us work cross-border intelligence with other agencies, 
whole-of-Government through our counterdrug group department, 
DEA, ATF and other groups on the Southern Border.
    Ms. McSally. Senator, your time has expired.
    Mr. Correa. My time has expired.
    Ms. McSally. We are going to do another round.
    Mr. Correa. OK.
    Ms. McSally. Alright. The Chair now recognizes Mr. Bacon 
from Nebraska for 5 minutes.
    Mr. Bacon. Thank you and I appreciate all three of you 
being here, thanks for your service and all of you served 
roughly three decades and more defending our country, and we 
are grateful. I have a series of quick questions for you. So, I 
should stay somewhat concise.
    Mr. Karisch, I think before you answer this, I just want to 
make sure that we have it clearly. Can you confirm that the 
mission of the Guard is helping you out? Is it value-added for 
what you are doing?
    Mr. Karisch. Tremendous value.
    Mr. Bacon. Thank you. Is this considered temporary until 
Border Patrol gets expanded or as--what is your time line here 
for receiving the support?
    Mr. Karisch. Sir, all I am aware of right now is that we 
are funded or the Guard is funded through the end of this 
fiscal year.
    Mr. Bacon. Is this a side note to fill a niche while you 
are trying to grow your numbers or is this more of an 
indefinite type of support?
    Mr. Karisch. I think this is--this is definitely on-going 
support, which we have seen in the past from the Guard to CBP.
    Mr. Bacon. I would be inclined to try to expand your 
numbers so that you can fulfill this mission, you know, on your 
own for my own 2 cents worth. Are the authorities clear between 
you or is there confusion where the lines are drawn when it 
comes to defending the border?
    Mr. Karisch. Not from my perspective. No.
    Mr. Bacon. How about your all's perspectives? It is pretty 
clear authorities?
    General Nichols. Yes sir we are supporting for Border 
Patrol and then coordinating through DOD, DHS, National Guard 
Bureau and then--and then the local border chiefs when we get 
down there and work for them. So our roles and missions are 
clearly defined.
    Mr. Bacon. Also, piggyback on what the Chairwoman already 
asked for--to our two Guard leaders here, can you also can 
reconfirm that you feel like your missions are value-added, 
that you are contributing to this mission?
    General Nichols. Absolutely. As I mentioned, I have had no 
negative feedback from any of the Arizona Guardsmen that are 
deployed.
    Mr. Bacon. I think I have a very similar question. I am 
going to give you a chance to delve into this more because we 
have the same question here. Is this undermining any of your 
other missions for training or for rotating to the Middle East? 
Do you see any--is there any kind of this to the other missions 
you have or any of you know opposing? Does it--is there 
anything cutting against it?
    General McGuire. On the readiness front, what I would say 
is that unlike when General Nichols mentioned that they had 
deployed entire units in the initial deployment in Arizona, we 
took individual augmentees based on the requirements levied in 
the request for assistance. Those soldiers and airmen are 
required to drill 1 weekend a month and do their annual 
training. We are going through the annual training season right 
now.
    So, the only pressure that I would say that would come upon 
this is that that soldier or airmen's primary mission is to 
their war traced unit of assignment. If that mission were 
tasked and they were forward-deployed, then we would have to 
backfill that soldier airman on the border. But the best way to 
think about is a citizen soldier. They are doing this Monday 
through Friday and drilling on the weekend. We have enough 
depth that we can cover that vacancy on the weekends. So no 
different than if they are working somewhere else.
    Mr. Bacon. Thank you. General Nichols?
    General Nichols. Yes, sir. To add to that, it is not just 
Texas. It's not the 4 border States. It's the entire National 
Guard. So----
    Mr. Bacon. Good point.
    General Nichols. Deploying in the 450,000 personnel realm. 
We have taken into account. Those are the deploying, those that 
have a deployed or an enroute, some of the training that has to 
be done would still have enough National Guard members to do 
this, and also to--if there is any readiness impact to spread 
it out and lessen it every place that we can.
    Mr. Bacon. OK. I don't know what your missions are right 
now in the Middle East, but there's no negative impact on any 
of the rotations you are doing with Iraq or Afghanistan?
    General Nichols. No, sir. None at all.
    Mr. Bacon. OK. General McGuire.
    General McGuire. No. As I mentioned, we have a nearly one-
fifth of the Arizona Guards can be tasked in the next year for 
sourcing, which is the reason we are going to have to go out to 
some of the other States to support this 6- to 700 men and 
women deployment.
    Mr. Bacon. OK. Thank you very much. One last question for 
Mr. Karisch. There is a lot of talk about ICE, the abolishment 
of ICE. A little bit unrelated, but I just want to get your 
opinion. If ICE was abolished, how would that impact your air 
mission?
    Mr. Karisch. There would be no effective immigration 
enforcement in the interior of the country, which if you have a 
law that is in the books, it needs to be enforced whether at 
the border or in the interior.
    Mr. Bacon. Thank you very much. Ms. Chairwoman, I yield 
back.
    Ms. McSally. Alright. Gentleman yields back. The Chair now 
recognizes Ms. Demings from Florida for 5 minutes.
    Ms. Demings. Thank you so much, Madam Chairwoman, and thank 
you to all of you for being with us today and thank you for the 
service that you provide. You know, I think and I believe my 
colleagues would agree that our primary responsibility as 
Members of Congress is to make sure that we are, No. 1, keeping 
our Nation safe, but also utilizing our resources, very limited 
resources and personnel in the most effective manner possible.
    When--during the 9/11 attacks, I was assigned to the 
Orlando International Airport as a police commander. I remember 
then-Governor Jeb Bush deployed the National Guard to come out 
and assist local and State law enforcement officers with 
securing the perimeter, patrolling the airport. We had 
thousands of passengers who were stranded there, as you know, 
not just in Orlando, but all over the country. The National 
Guard played a critical role in helping to get aviation 
security back up to where it needed to be. We appreciated that.
    That was a critical role. The mission was clear. So we are 
trying to make sure that you are being utilized in the most 
effective way and not being political, because I questioned the 
initial deployment, whether it was actually political or not, 
major or--General Nichols, you indicated that you have over 
2,000, I believe, National Guard personnel deployed overseas. 
Could you talk about some of the duties that are assigned to 
them in that capacity?
    General Nichols. Yes, ma'am. We are on the Horn of Africa 
right now, which is a nation-building, capacity-building 
mission assisting different--the different nations surrounding 
the Horn. We are in MFO ops, which is observation on the Sinai, 
enforcing the treaty between Israel and not enforcing but 
making sure it stays intact. We are in Afghanistan. We are in 
Kuwait/Iraq. We are sending a helicopter company very shortly 
and then we are on the hook in a year-and-a-half or so to send 
out an attack battalion, Apaches. Then every year, we just 
continue. I tell folks that the sun doesn't set on Texas--on a 
Texan because we have got a Texan in every region in the world 
supporting America.
    Ms. Demings. Yes, thank you. Chief Karisch, you talked 
about some of your duties involve aviation support, operating 
cameras, and clearing vegetation, what else are they involved 
in?
    Mr. Karisch. Repairing----
    Ms. Demings. Because we have heard all kinds of stories.
    Mr. Karisch. Yes, ma'am.
    Ms. Demings. We want to make sure that those stories are 
not accurate.
    Mr. Karisch. Yes, ma'am. Repairing tactical infrastructure, 
road improvements that are down there, intelligence analysis 
that they are doing. So I think they are doing a lot of 
different good support roles for us right now. Working in 
dispatch centers, but specifically the camera rooms, that is 
where we probably have the greatest concentration of Guard 
personnel right now.
    Ms. Demings. What percentage of the ones assigned to you 
would you say are actually involved in the--operating the 
camera mission?
    Mr. Karisch. Vast majority. I don't have a percentage right 
at the top of my head, which we could definitely get back to 
you on, but the vast majority, I think the two areas right now 
that consume the largest deployment of personnel is going to be 
the aviation piece and then also the surveillance.
    Ms. Demings. They are engaged in ride-alongs, is that 
correct?
    Mr. Karisch. No. No.
    Ms. Demings. They have contact at all with any of the 
families?
    Mr. Karisch. None whatsoever, ma'am.
    Ms. Demings. OK. Very, very quickly with my last minute 
that I have left. You have heard about the--I think the fiasco 
actually with families being separated. I know under the zero 
tolerance policy that this has just been an, I would say, an 
additional burden on already limited resources. Have you been 
involved at all in any of the process that is being developed 
to reunite families? Children that were separated from their 
parents.
    Mr. Karisch. That is an issue with DHS or with ICE and HHS, 
they are the ones who are actually handling the reunification--
--
    Ms. Demings. Do you play any role at all----
    Mr. Karisch. No, ma'am.
    Ms. Demings. In that process? You or no one at the border.
    Mr. Karisch. Right. Actually, I handle the enforcement at 
the border but not handling the reunification right now.
    Ms. Demings. OK. Thank you all again. I yield back.
    Ms. McSally. Gentlelady yields back. The Chair now 
recognizes Mr. Hurd from Texas for 5 minutes.
    Mr. Hurd. Thank you, Chairwoman. Chief Karisch, it is great 
to see you. I think they are working you a little harder in 
Arizona than Texas. I think you have lost some weight since I 
have last seen you. Looking good, sir. General Nichols, it is 
always a pleasure to have you and thank you for educating me in 
some of the training operations that is going on in San 
Antonio. General McGuire, it is a pleasure to have you here.
    For my friends from the National Guard, you all's ISR 
capabilities, have we deployed as much as we could along the 
border? Is this another training opportunity, where your men 
and women of the Guard are able to, you know, not only help 
Border Patrol with ISR but that the men and women get that 
training opportunities when they do it overseas?
    General Nichols. We actually started with the Lakotas and 
have the mission package, which is a very handy and very 
effective platform. We are sending in the RC26s now. I think 
there will be time in the future for--I know that California 
has mentioned that, I think Arizona as well. So we see that as 
a possible in the future. We are not volunteering that. We are 
letting DOD and DHS do their talk to make sure they get the 
mission they want but they know the capabilities that we can 
provide.
    Mr. Hurd. Do you copy?
    General McGuire. Yes, sir. You are correct that we are not 
fully deploying all of our capabilities. In my opening 
statement, I did mention that there are capabilities like the 
launch and recovery element at Fort Huachuca where we operate 
MQ-9s, where we could help increase capacity of both CBP MQ-9s, 
and our own Guard assets that are stay-at-home training assets 
and position them on the border.
    To date, we have not yet gotten a request for assistance 
through DHS and DOD for that. The most recent change was the 
addition of the RC-26, so Texas and Arizona will be deploying 
their RC-26 manned platform but we could do more in the 
unmanned systems area.
    Mr. Hurd. Because of the number of weeks that you all are 
there, do you see opportunities that if you all were able to 
grow what you were able to do that it would be increased 
training opportunities for the men and women in the Guard?
    General McGuire. On the unmanned aerial systems, 
definitely. We have looked at working with CBP to do additional 
launch and recovery operations, which is limited by the number 
of aircraft we have since so many DOD assets are deployed 
forward into theater, either in CENTCOM or PACAF or PACOM 
theaters. We have just a couple aircraft. If we could utilize 
those aircraft, we could train more crews, definitely.
    Mr. Hurd. General Nichols, any opinion?
    General Nichols. I agree with General McGuire. That can be 
expanded.
    Mr. Hurd. Got you. Chief Karisch, you talked about it 
earlier. The fentanyl issue. Correct me if I am wrong, 0.2 
grams of heroin kills--could kill somebody, 0.002 grams of 
fentanyl can kill somebody, 11 kilograms can ultimately kill 3 
million people. The ability to move that, you know, through 
bulk. Are your officers--are they getting the training they 
need in how to deal with such a toxic substance?
    Mr. Karisch. We have definitely conducted training, 
Congressman Hurd, but additional training is required. I mean 
in our dialog right now even with the Mexicans, with their law 
enforcement agencies, we have started to talk about this. Many 
times, they are going to see that even before we do so we have 
got to do everything we can to share information with each 
other as toxic as it can be to make sure that we are protecting 
our front-line personnel who are coming in harm's way.
    We have changed the way we transport, the way we test, so 
every bit of information that we can get that is going to make 
it safer for us to handle it is going to be done.
    Mr. Hurd. Yes. This is something, not only you but your 
fellow local law enforcement colleagues are going to need that 
same training first responders because again you brush your 
hand against something like this and it could have significant 
long-term effects.
    If I had additional time, I would like to ask about, you 
know, being able to do long-term operations, so if you find 
someone in Tucson sector that is going--are we using that 
information to understand the halfway houses before drugs are 
being shipped to Chicago or Houston and the interplay between 
various law enforcement? This is an area that we are spending 
time with and you have always helpful in educating me, so I 
look forward to that conversation in the future. Chairwoman, I 
yield back the time I do not have----
    Ms. McSally. Gentleman yields back his lack of time. Chair 
now recognizes Mr. Richmond from Louisiana for 5 minutes.
    Mr. Richmond. Thank you, Madam Chairwoman. I guess I will 
pick up where Congressman Hurd left off and talk about--first, 
before I go there, let me just ask. Did you make a request for 
or do you know if there was a request made for National Guard 
to support the border mission?
    Mr. Karisch. We did not, sir.
    Mr. Richmond. OK. Do you know of any agency that actually 
made a request for the National Guard to assist in patrolling--
securing the border?
    Mr. Karisch. I believe the President directed both DOD and 
DHS, as to work together in conjunction with the State 
Governors, he has to deploy the Guard down at the border.
    Mr. Richmond. Right. But there was no request from any 
agency that actually patrols the border.
    Mr. Karisch. Correct.
    Mr. Richmond. Do you know if there was a long-term strategy 
put in place beforehand so that--I guess any of you all are in 
a position to answer. What does mission accomplished look like? 
Or has that been articulated what mission accomplished looked 
like, do we know?
    OK. Now, I will pick up where Mr. Hurd left off, which is, 
Mr. Karisch, I think that you talked a little bit about drugs 
coming over, terrorism and other things. Do you believe that 
with personnel only and, I guess, maybe some border fencing, 
that we can secure the border 100 percent with just that?
    Mr. Karisch. I think you are going to need a combination, 
Congressman, of the personnel, tactical infrastructure that 
comes with it, the access, the roads, the technology. But also, 
what you are going to need is you are going to need consequence 
and what I mean by that is a prosecution, because you are in 
fact deterring. So I think all of these things coming together 
is what is going to help us effectively control the border.
    Mr. Richmond. Now, besides people that are coming over and 
to do harm, and I will include terrorism, trafficking drugs, 
trafficking people, whatever. All of those are to do harm, but 
you also see people that are coming across in search of better 
opportunity or safety for their families.
    In that, do we, that you know of, do we put a lot of effort 
into--because I would assume that those drugs that are coming 
across the border, those humans that are being trafficked, the 
law of supply and demand tells me that if they are coming 
across the border to the United States, it means somebody in 
the United States buying those drugs, buying the people that 
are being trafficked, so we are creating demand for this 
contraband whether it is drugs or people or anything else. That 
is what we are doing as a country, is creating the demand. 
Wouldn't you agree?
    Mr. Karisch. Yes. I mean I have always said is that the 
insatiable appetite for drugs here is what fuels all of the 
narcotics coming across the border.
    Mr. Richmond. It is that narcotics production and the money 
associated with it that is making some of these homelands so 
violent with cartels and everyone else so that some of the 
well-intentioned people coming across the border, whatever 
number that may be, they are in search of a safer place, better 
place, but we are as a country contributing to the chaos in 
their respective homelands to some extent. Would you agree with 
that?
    Mr. Karisch. Well, I wouldn't say the United States is 
solo, I think drugs head into various parts of the world. You 
have violence in various parts of the world that drive these 
peoples on this journey, but various causes of what drives 
individuals to come to the United States.
    Mr. Richmond. Yes. I wouldn't say we are the sole cause, I 
wouldn't say we are the factor, but I would say we are a 
factor. Would you agree with us being a factor?
    Mr. Karisch. Well, I think yes, I mean can say that it is a 
factor but it is one of many, because there is many different 
reasons of why people decide to come to the United States.
    Mr. Richmond. I agree. Look, let me just say this and 
especially to our National Guard people. I represent New 
Orleans all the way up to Baton Rouge. We are the home of many 
natural disasters, and I would just take the chance to thank 
you all, our National Guard all across the country. You all 
respond in a moment's notice to hurricanes, to tornadoes, and 
everything else. No matter what particular issue we are on, the 
sacrifice that your men and women make from the Guard to law 
enforcement is what makes this country special. So thank you 
all for what you are doing. I appreciate your time in being 
here.
    Ms. McSally. Gentleman yields back. I am going to do the 
second round, you all right with that? All right, great. 
Thanks. I now recognize myself. I want to follow up, Chief 
Karisch. I know it is not in your full jurisdiction but I think 
it is important for everybody to understand that the Guard 
supporting Border Patrol in between the ports of entry but also 
at the ports of entry are CBP officers. I found out yesterday 
from Sherriff Dannels also now supporting the Sheriff's Office 
down in Cochise County. We are all in this together, right, in 
an integrated way. Can you share some information on how they 
are supporting at the ports of entry and with local law 
enforcement?
    Mr. Karisch. Yes, the Guard personnel down at the ports of 
entry are supporting and running the non-intrusive inspection 
devices, X-raying vehicles, X-raying the freight that is coming 
into the United States, freeing up also officers at the port of 
entries is to do other duties. I think in my discussion with 
General McGuire early on and also with Governor Ducey, we 
wanted to provide support, also the State local agencies out 
there that need it. So that is Sherriff Daniels in Cochise 
County actually has personnel assigned there, because this is 
not simply about CBP or DHS, it is that community at large that 
can benefit from the assistance of the Guard.
    Ms. McSally. Great. Thanks. I also want to follow up on 
General McGuire and Major General Nichols. You talked about how 
we--there is a potential to do more air support. You know, as a 
pilot myself, I know it is always better to do real missions 
than to be trying to create, you know, training opportunities. 
So that, I think, is a tremendous training opportunity. What is 
the process that we would go through to increase the capacity 
in these other areas like the LREs or other assets? Is that 
just happening sort-of collaboratively or does CBP have to make 
a request to you or how does that all work?
    General McGuire. To access the training assets that are at 
Fort Huachuca at the launch and recovery element, it would need 
to just come down like any of the other mission assignment 
requests, so if JTF West makes that request up to DHS 
headquarters and that comes back down through DOD as a 
validated mission, we would source the crews to launch the 
additional LREs and use those on the border to support them for 
queuing just as we are with the RC-26 and the MEPS package on 
the Lakota.
    Ms. McSally. Got it. Are there conversations going on about 
that potential request right now?
    General McGuire. We have been asking for that. The problem 
with MQ-9s is always the confusion about we are not asking to 
pull people back from theater or trying to use assets that we 
presently use for training with our folks there to keep their 
in-garrison training requirements up at Fort Huachuca, but we 
could put them on a mission on the border just like we are 
going to do with RC-26.
    Ms. McSally. OK. Great. Thank you. Chief Karisch, can you 
quantify the number of apprehensions? I know this is a little 
bit in your testimony but number of apprehensions, amount of 
drugs apprehended because of the National Guard deployment in 
support of this mission?
    Mr. Karisch. Approximately 11,000 pounds of marijuana. 
There has also been cocaine, heroin that they--we are giving 
them credit for in the seizure. Also on the apprehension side, 
over 11,000 apprehensions as well. These are the Guard 
personnel who are either operating aircraft and are making 
personal observations or working camera rooms.
    There was a Raven aircraft unit from the Guard that was 
flying recently in Tucson, observed 6 individuals with burlap 
backpack, directed agents in. Our agents were able to seize 284 
pounds of marijuana and arrest all 6 individuals. So that 
speaks to that level of cooperation and different capability 
that they bring to us.
    Ms. McSally. Great. Thanks. General McGuire, I want to go 
back to how this can maybe enhance the training of some of the 
Guardsmen and women and their skill sets. Do you have some 
examples, maybe just anecdotes of, you know, where if they 
weren't doing this mission, maybe they would be doing some in-
garrison training or, you know, computerized training but, you 
know, now they are actually doing a real mission and how that 
has enhanced their skills?
    General McGuire. So we have taken a number of our folks 
from our engineering battalion to work down on the border 
operating heavy equipment, same type of heavy equipment they 
would operate in their primary mission. Chief Karisch already 
mentioned we did deploy a number of folks from our maintenance 
company down to the unit and they are doing wheeled vehicle 
maintenance and so having more vehicles to work on makes more 
capable mechanics, so we have a whole bunch of them working 
there, helping save costs. Then obviously on the aviation front 
as you mentioned, the pilots get great opportunity, operating 
the sensor package in night low visibility doing real missions 
as opposed to out at the Goldwater Range.
    Ms. McSally. That is great. General Nichols, do you have 
examples to add?
    General Nichols. We have the same experiences. Our Lakota 
pilots Nation-wide that are coming to support us are getting 
real-world training. It is on the spot. It is not the same kind 
of training you can get at home at all. So it is better 
training than they could do at home. We are supporting again in 
the maintenance of vehicles, so our folks get to practice their 
trades.
    We have had some saves like the chief said, we were helping 
Border Patrol save money. Turn their vehicles quicker which 
keeps the agents out on the border instead of teaming up a 
couple on a vehicle, we can get enough vehicles for them to 
have their own. It makes them more effective when they get out 
there. Then our intelligence analyst folks are taking law 
enforcement data and helping form up packages, mission packages 
for them to go act on.
    Ms. McSally. Oh, that is great. It is real-time intel now. 
So that is fantastic. OK. I am over my time. Chair now 
recognizes Mr. Correa.
    Mr. Correa. Thank you, Madam Chair. Chief Karisch, Tucson 
area, Tucson sector, I know we had--CBP has a lot of 
difficulty, some difficulty in retaining personnel in that 
area. How can we help you, what can we do to help retail 
experienced personnel in your area? I say this in the context 
that we have some fine National Guardsman here. The last time I 
called General Baldon, he returned my phone call from Eastern 
Europe.
    That reminded me the National Guardsmen now are making up 
more and more of our regular troops around the world. I have 
got constituents that are on their fourth tour in Afghanistan 
or the Middle East. So you are there but we know you are also 
halfways around the world and by the way, the sun doesn't set 
on Californians either. So, sir, how can we help you, you know, 
get up to, you know, those ranks that you need to do your job?
    Mr. Karisch. Well, first of all, Congressman, I appreciate 
you helped the Border Patrol already last year, Congress did 
with the funding for mobility, which is key to our 
organization. The vast majority of people that leave the Border 
Patrol right now for other Federal agencies are going somewhere 
because of location.
    So having a good mobility program, which requires monies to 
move people around every so often is key to what we are going 
to need as an organization is to retain--it is the retention-
type incentives that we, I think, can offer the work force is 
to make sure--is that they feel appreciated and vetted is to 
stay in the organization. But definitely the piece that we have 
got to fix is the mobility piece which is going to require 
additional funding.
    Mr. Correa. Thank you. Mr. Bacon, I believe, was talking a 
while ago about abolishing ICE. I would like to say as an 
individual, I can't speak for any of my colleagues here, but 
that is not my preferred action. I think you all do anti-
terrorism, you do anti-piracy, you do drug interdiction, human 
trafficking. I have to tell you, probably the one issue that is 
really striking that causes a lot of issues is the zero 
tolerance policy.
    I know Secretary Nielsen, saw her one Sunday night on TV, 
she said our policy is not family separations. Following 10 
hours, Monday morning, she was on TV saying our policy is zero 
tolerance. So I can't imagine what your agency is going through 
trying to figure out what the policy is of this country, what 
your job is. I think the zero tolerance is what is really 
causing folks a lot angst, a lot of challenges just because it 
is a very difficult issue. Children, parents.
    I am telling you this because I want you to know that I 
appreciate the job you are doing. I think most of my colleagues 
appreciate the job you are doing and we are thankful for it. 
But the zero tolerance issue is what is driving people crazy so 
to speak, really emotional. I have with me here, and I am going 
to ask the Chair to give me the opportunity to submit this for 
the record, a statement from Governors, about 10 Governors that 
have essentially declined to send their troops to the border.
    Ms. McSally. Without objection.
    [The information follows:]
          Submitted For the Record by Honorable J. Luis Correa
        Letter From Governor Edmund G. Brown, Jr. of California
                                    April 11, 2018.
    Dear Secretary Nielsen and Secretary Mattis: Pursuant to your 
request, the California National Guard will accept Federal funding to 
add approximately 400 Guard members State-wide to supplement the 
staffing of its on-going program to combat transnational crime. This 
program is currently staffed by 250 personnel State-wide, including 55 
at the California border.
    Your funding for new staffing will allow the Guard to do what it 
does best: Support operations targeting transnational criminal gangs, 
human traffickers, and illegal firearm and drug smugglers along the 
border, the coast and throughout the State. Combating these criminal 
threats are priorities for all Americans--Republicans and Democrats. 
That's why the State and the Guard have long supported this important 
work and agreed to similar targeted assistance in 2006 under President 
Bush and in 2010 under President Obama.
    But let's be crystal clear on the scope of this mission. This will 
not be a mission to build a new wall. It will not be a mission to round 
up women and children or detain people escaping violence and seeking a 
better life. And the California National Guard will not be enforcing 
Federal immigration laws.
    Here are the facts: There is no massive wave of migrants pouring 
into California. Overall immigrant apprehensions on the border last 
year were as low as they've been in nearly 50 years (and 85 percent of 
the apprehensions occurred outside of California).
    I agree with the Catholic Bishops who have said that local, State, 
and Federal officials should ``work collaboratively and prudently in 
the implementation of this deployment, ensuring that the presence of 
the National Guard is measured and not disruptive to community life.''
    I look forward to working with you on this important effort.
            Sincerely,
                                       Edmund G. Brown, Jr.
                                 ______
                                 
     Executive Order From Governor John W. Hickenlooper of Colorado
                       b 2018 008 executive order
   forbidding state agencies from using state resources to separate 
 children from their parents or legal guardians on the sole ground of 
                           immigration status
    Pursuant to the authority vested in the Office of the Governor of 
the State of Colorado and, in particular, Article IV, section 2 of the 
Colorado Constitution, I, John W. Hickenlooper, Governor of the State 
of Colorado, hereby issue this Executive Order forbidding State 
agencies rrom using State resources for the purpose of separating 
children from their parents or legal guardians on the sole ground that 
their families are in violation of Federal immigration laws.
I. Background and Purpose
    The U.S. Department of Homeland Security's practice of separating 
children from their parents when arriving al the Southern Border is 
offensive to our core values as Coloradans and as a country. The 
administration announced--``Zero tolerance'' policy in the spring of 
2018 resulting in the family separations. The administration has 
recently stated that the purpose of the policy is to intimidate 
immigrants and deter crossings. The United Stales Supreme Court has 
recognized the fundamental relationship between children and their 
parents and has permitted intentional government intrusion into this 
relationship in very limited circumstances. The United Nations High 
Commissioner for Human Rights has condemned the practice as a serious 
violation of the rights of children and demanded an immediate halt. The 
American Psychological Association stated that the separations threaten 
the mental and physical health of the children.
    We recognize the importance of maintaining safety at our 
international borders, but intentionally separating children from their 
families is cruel and un-American. In the past 6 weeks, U.S. agents 
have separated an estimated 2,000 children from their parents. It is 
deeply troubling that the U.S. Government would participate in such 
inhumane actions.
    The State of Colorado is a safe and welcoming place for all of its 
residents, regardless of immigration status. To maintain public 
confidence in the integrity of State government and promote trust and 
cooperation between State and local law enforcement and all Colorado 
communities, I issue this Executive Order to forbid any State agency 
from using any State resources for the purpose of separating any child 
from his or her parent or legal guardian on the sole ground that such 
parent or legal guardian is present in the United States in violation 
of Federal immigration laws.
II. Declaration and Directives
    A. For purposes of this Executive Order, ``State agency'' means the 
principal departments listed in C.R.S.  24-1-110, with the exception 
of Department of State, Department of the Treasury, Department of Law, 
and Department of Education.
    B. No State agency may deprive any person of services or benefits 
to which he or she is legally entitled because of a person's 
immigration status, except as required by State or Federal law.
    C. No State agency may use any State resources, including but not 
limited to moneys, equipment, or personnel, for the purpose of 
separating any child from his or her parent or legal guardian on the 
sole ground that such parent or legal guardian is present in the United 
States in violation of Federal immigration laws.
    1. The foregoing shall not apply if any one of the following has 
        occurred:
      a. A State court, authorized under State law, terminates the 
            rights of a parent or legal guardian, determines that it is 
            in the best interests of the child to be removed from his 
            or her parent or legal guardian, or makes any similar 
            determination that is legally authorized under State law;
      b. An official from the State or county child welfare agency 
            makes a determination that it is in the best interests of 
            the child to be removed from his or her parent or legal 
            guardian because the child is in danger of abuse at the 
            hands of the parent or legal guardian or is a danger to 
            themselves or others; or
      c. Law enforcement officials are acting in accordance with C.R.S. 
             24-33.5-211 or have probable cause to believe that the 
            child is a victim, or is at significant risk of becoming a 
            victim, of human trafficking as defined in C.R.S.  18-3-
            501 et seq., is in danger of abuse at the hands of the 
            parent or legal guardian, or is a danger to themselves or 
            others.
    D. This Executive Order is intended to be consistent with the 
State's obligations under State and Federal law and shall at all times 
be interpreted not to violate any requirement of State or Federal law. 
Any conflict with State or Federal law as it exists at the time of this 
Executive Order or as it shall be amended or enacted in the future 
shall be resolved in favor of State or Federal law. Nothing in this 
Executive Order shall be construed to cause interference with routine 
State law enforcement activities, even if such activity results in 
independent Federal law enforcement involvement and enforcement of 
Federal immigration laws.
III. Request for Enforcement
    I hereby request that the State of Colorado Department of Law 
investigate to the fullest extent permissible under law any alleged 
violation of this Executive Order or other related conduct that 
constitutes a crime under State law.
IV. Duration
    This Executive Order shall remain in effect unless modified or 
terminated by further Executive Order of the Governor or until 
superseded by State or Federal law.
GIVEN under my hand and Executive Seal of the State of Colorado this 
eighteenth day of June, 2018.
                                      John W. Hickenlooper,
                                                          Governor.
                                 ______
                                 
      Press Release From Governor Dannel P. Malloy of Connecticut
                             June 18, 2018
Gov. Malloy and Lt. Gov. Wyman Call on President Trump to End His 
        Policy of Separating Immigrant Families
    (HARTFORD, CT).--Governor Dannel P. Malloy and Lt. Governor Nancy 
Wyman today released the following statements calling on President 
Trump to end the inhumane policy his administration enacted of forcibly 
separating immigrant children from their parents at the border:
    Governor Malloy said, ``The Trump administration's willingness to 
push their vile agenda, completely disregarding the U.S. Constitution 
and basic human decency, knows no bounds. They have heartlessly torn 
children away from their families, locked them in holding cages in 
abandoned box stores, and subsequently launched a propaganda campaign 
of administration officials blatantly lying to the American people 
about it. It brings dishonor to our country and is the cause of extreme 
distress for many American citizens. The Trump administration is 
engaging in this `zero-tolerance' practice that is reminiscent of one 
of the darkest moment in our history, when Japanese families in America 
were rounded up and detained in internment camps.
    ``Make no mistake--the Trump administration's hands are not tied 
here. There is no law that mandates this practice. They are not being 
forced or coerced into stealing migrant children away from their 
parents. They are proactively electing to implement this policy and to 
take such actions. They are, in effect, taking these children hostage, 
inflicting a lifelong trauma on their innocent lives. It is cruel. It 
is cowardly. It's un-American. As I have stated in the past, I will not 
condone the use of our military reservists to participate in any effort 
at the border that is connected to this inhumane practice. This vile 
practice must end.''
    Lt. Governor Wyman said, ``This practice represents a new low in 
American foreign policy and in our humanity--it certainly doesn't 
reflect the country I was brought up in, know, and love. This isn't 
about politics or policy, it's about children who are suffering terror 
at the hands of the U.S. Government. It's wrong and it must stop. I 
deeply appreciate the doctors, lawyers, and advocates who have shown up 
in Texas ready to defend and care for these traumatized children. They 
embody the beacon of hope that this Nation was once known to be.''
                                 ______
                                 
          Press Release From Governor John Carney of Delaware
                             July 24, 2018
    governor carney's statement on the delaware national guard and 
       deployment to the southern border--state of delaware news
https://news.delaware.gov/2018/06/19/governor-carneys-statement-
        delaware-national-guard-deployment-southern-border/
    DOVER, Del..--Governor John Carney on Tuesday issued the following 
statement on the Delaware National Guard and deployment to the Southern 
Border:

``I take my job as Commander-in-Chief of the Delaware National Guard 
extremely seriously. In the last year, we've sent Guardsmen and women 
to Texas, Hawaii, and Puerto Rico to help our fellow citizens cope with 
natural disasters. We've sent Delaware Guardsmen and women overseas to 
keep us safe. I'm extremely proud of Delaware's soldiers and airmen and 
women. Today, we received a request to send Delaware National Guard 
troops to the Southwest Border. Under normal circumstances, we wouldn't 
hesitate to answer the call. But given what we know about the policies 
currently in effect at the border, I can't in good conscience send 
Delawareans to help with that mission.
``If President Trump revokes the current inhumane policy of separating 
children from their parents, Delaware will be first in line to assist 
our sister States in securing the border. I served in Congress, and I 
watched for 6 years as that body failed to pass a comprehensive 
immigration policy that would secure our borders in a way that upholds 
the values of this great country. Congress and the President need to 
step up and fix the mess that our immigration system has become.''
                                 ______
                                 
              Tweets From Governor Larry Hogan of Maryland
8:14 A.M.--19 Jun 2018
    @GovLarryHogan.--Until this policy of separating children from 
their families has been rescinded, Maryland will not deploy any 
National Guard resources to the border. Earlier this morning, I ordered 
our 4 crewmembers & helicopter to immediately return from where they 
were stationed in New Mexico.
    @GovLarryHogan.--Washington has failed again & again to deliver 
needed immigration reform--Congress and the administration must step up 
and work together to fix our broken system. Immigration enforcement 
efforts should focus on criminals, not separating innocent children 
from their families.
                                 ______
                                 
              Tweet From Governor Steve Bullock of Montana
8:49 A.M.--20 Jun 2018
    @GovernorBullock.--There are no Montana National Guard Troops at 
the southern border, because back in April I refused to send them. As a 
governor and as a father, I'm disgusted. I don't care if it's the 
President or Congress--these atrocities must end immediately.
                                 ______
                                 
         Press Release From Governor Phil Murphy of New Jersey
 governor murphy signs executive order to prevent state resources from 
             being used to separate families of immigrants
    TRENTON.--Today, Governor Phil Murphy signed an Executive Order to 
prohibit any State resources from being used to assist the Trump 
administration's policy of separating the families of immigrants.

``Ever since our founding--and even before--our Nation has been a 
beacon for families seeking freedom and yearning for a better life. 
President Trump has turned this promise on its head by doubling-down on 
his inhumane and cruel policy of separating families,'' said Governor 
Murphy. ``It has no basis in law or Scripture, no matter how many times 
the President, the Vice President, or anyone who tries to defend this 
policy tries to spin it. This is a matter of human rights, human 
dignity, and basic humanity.''
                                 ______
                                 
          Statement From Governor Andrew M. Cuomo of New York
Governor Cuomo: ``New York will not be party to this inhumane treatment 
        of immigrant families along our border.''
    ``The administration's unconscionable treatment of families at our 
border is a moral outrage and an affront to the values that built this 
State and this Nation.
    ``In the face of this on-going human tragedy, let me be very clear: 
New York will not be party to this inhumane treatment of immigrant 
families. We will not deploy National Guard to the border, and we will 
not be complicit in a political agenda that governs by fear and 
division.
    ``Day after day, I am increasingly disturbed by the reports of 
disgraceful tactics used by ICE both in our own State and along our 
Nation's border. I have called on the Acting Inspector General of the 
Department of Homeland Security to investigate illegal and 
discriminatory ICE tactics in New York and to tell us what his office 
is doing about the assault on immigrant families along our border.
    ``In New York, we stand for the values embodied by the Lady in our 
Harbor. We know that our diversity is our greatest strength, and we 
will never stop fighting to protect and strengthen the rights of 
immigrants.''
                                 ______
                                 
        Press Release From Governor Roy Cooper of North Carolina
     governor cooper recalls north carolina national guard members
June 19, 2018
    RALEIGH.--Governor Cooper today shared the following statement 
about North Carolina National Guard members:

``The cruel policy of tearing children away from their parents requires 
a strong response, and I am recalling the three members of the North 
Carolina National Guard from the border.''

    Background: As had been done under President Bush and President 
Obama, the North Carolina National Guard had deployed requested 
assistance to the U.S. Southern Border. The current deployment includes 
a helicopter and three National Guard members.
                                 ______
                                 
               Tweets From Governor Kate Brown of Oregon
April 4
    @OregonGovBrown.--There's been no outreach by the President or 
Federal officials, and I have no intention of allowing Oregon's guard 
troops to be used to distract from his troubles in Washington.
    @OregonGovBrown.--If @realDonaldTrump asks me to deploy Oregon 
Guard troops to the Mexico border. I'll say no. As Commander of 
Oregon's Guard, I'm deeply troubled by Trump's plan to militarize our 
border.
    @OregonGovBrown.--Dr. Martin Luther King Jr. changed our nation 
forever through his leadership, service, and clarity of vision. As we 
honor his legacy and reflect on the progress we've made, we must also 
rededicate ourselves to defending the civil rights of all Americans.
                                 ______
                                 
              Tweet From Governor Tom Wolf of Pennsylvania
5:21 P.M.--19 Jun 2018
    @GovernorTomWolf.--While PA proudly sent troops to TX, FL, and 
Puerto Rico for disaster relief and I believe we need to protect our 
borders from real threats, I oppose State resources being used to 
further Pres. Trump's policy of separating young children from their 
parents. https://www.nytimes.com/2018/06/19/us/national-guard-trump-
children-immigration.html
                                 ______
                                 
         Statement From Governor Gina Raimondo of Rhode Island
 governor raimondo: ``i will not deploy ri national guard units to the 
             southern border to support family separation''
    PROVIDENCE, RI.--A day after signing legislation to protect Rhode 
Island's Dreamers, Governor Gina M. Raimondo issued a declarative 
statement this morning saying that Rhode Island will not send the Rhode 
Island National Guard to the Southern Border to support the Trump 
administration's policy of family separation:

``The Trump administration's family separation policy is immoral, 
unjust, and un-American. I have not yet been asked, but if I am, I will 
not deploy units from the Rhode Island National Guard to the Southern 
Border to support the administration's policy that is ripping families 
apart.
``Children should be with their families, not trapped in cages, sobbing 
and calling out for their parents. The administration's immigration 
policy goes against everything we value as Rhode Islanders, as 
Americans and as decent people.
``The President alone can end family separation. I'm standing with all 
good-hearted people in our Nation and calling on President Trump to end 
this inhumane policy.''

    Governor Raimondo is the commander-in-chief of the Rhode Island 
National Guard.

             Statement From Governor Phil Scott of Vermont
20 JUNE 2018
    MONTPELIER, VT.--Governor Phil Scott today issued the following 
statement in response to Federal immigration policy and the situation 
on the Southern Border.

``The recent `zero tolerance' policy adopted by the Trump 
administration has raised the concerns of many--myself included--
especially as it relates to the separation of immigrant children from 
their parents. Families should be kept together, and all people should 
be treated humanely and with dignity.
``Our understanding is that the office of the Vermont U.S. Attorney has 
made clear their office is not under this directive, which means this 
is not occurring at the Vermont/Canada border. I am pleased to see our 
U.S. Attorney's office will continue to use discretion on a case-by-
case basis as they handle immigration cases for those entering through 
Vermont's Northern Border.
``To be clear: Vermont has not received a specific request to deploy 
troops to the Southern Border. However, following a general call from 
the White House in April, I made clear to the National Guard I did not 
plan to deploy troops under those circumstances and that has not 
changed.
``As I stated earlier this week, I am also encouraged by the work of 
Vermont's Congressional Delegation, along with a bipartisan group of 
lawmakers in Congress, on efforts to reform Federal immigration policy.
``I call on the Federal Government to find the best path forward to 
keeping families together and ensuring humane and fair treatment of 
all, while securing our Nation's borders.''
                                 ______
                                 
         Press Release From Governor Ralph Northam of Virginia
   governor northam recalls virginia national guard troops from u.s. 
                            southwest border
Four soldiers, helicopter recalled in response to zero-tolerance 
        immigration policy resulting in mass family separations
    RICHMOND.--Governor Ralph Northam today issued the following 
statement after he ordered the recall of four Virginia National Guard 
Soldiers and one helicopter from the U.S. Southwest Border in response 
to the Federal Government's enforcement of a ``zero-tolerance'' policy 
that separates immigrant children from their families.

    ``Virginia benefits from the important work of securing our border 
and we have a responsibility to contribute to that mission. However, we 
also have a responsibility to stand up to policies or actions that run 
afoul of the values that define us as Americans. Today I spoke with the 
Adjutant General of the Virginia National Guard and ordered him to 
withdraw four soldiers and one helicopter from Arizona until the 
Federal Government ends its enforcement of a zero-tolerance policy that 
separates children from their parents.
    ``When Virginia deployed these resources to the border, we expected 
that they would play a role in preventing criminals, drug runners, and 
other threats to our security from crossing into the United States--not 
supporting a policy of arresting families and separating children from 
their parents.
    ``Let me be clear--we are ready to return and contribute to the 
real work of keeping our Nation safe. But as long as the Trump 
administration continues to enforce this inhumane policy, Virginia will 
not devote any resource to border enforcement actions that could 
actively or tacitly support it. I urge President Trump and leaders in 
Washington to turn away from this zero-tolerance policy and come to the 
table on the real immigration reform this Nation needs.''

    Mr. Correa. The major reason they cite is family 
separation. This is the one issue that is causing a lot of 
Americans a lot of anxiety. So I just wanted to make sure I 
told you so you can understand that I personally appreciate the 
job you do. Mexico is California's biggest trading partner, 
drug issues are big issues in my district like they are around 
the country. We want to fix them and we want to make sure that 
America is a great place for all Americans to live. So, again, 
I just wanted to thank you for the good job you do. Finally, 
you know, I was noticing you--serious here, you said you seized 
about 11,000 pounds of marijuana.
    Mr. Karisch. The National Guard, yes.
    Mr. Correa. The National Guard. You know, my policy 
question is now that cannabis is fully legal in California and 
cannabis is probably legal one way or another in more than--you 
know, population in this country, more than 50 percent of the 
population lives under a jurisdiction where cannabis is legal. 
I am just trying to figure out how we address that when it 
comes to your job.
    Mr. Karisch. Sir, in Arizona, my agents have seized 
actually 125,000 pounds of marijuana----
    Mr. Correa. Coming or going?
    Mr. Karisch. Coming in the United States. So the issue is 
we have had 65 percent reduction in the amount of marijuana 
that comes across the borders for various reasons, medical 
marijuana, recreational laws passed in the United States, but 
still a sizable amount of that contraband coming in. But 
notwithstanding I think also that the criminal organizations 
are going to change their business model at some point in time 
and we are starting to see evidence of that of them reverting 
more to the hard drugs because that is going to be the future.
    We have had spikes in methamphetamine seizures, cocaine is 
coming back up, heroin and, of course, the big fear is the 
fentanyl issues with the opioids coming across the border. So I 
think there is a lot of work that we all have to do together. 
That is why I say I really welcome their support because if 
they can give greater situational awareness, if they can do 
some of the jobs that won't time my people into camera rooms, 
that frees us up is to make that interdiction.
    Mr. Correa. In conclusion, Madam Chairwoman, I just want to 
say, look forward to working with you, make sure you are 
successful in stopping those kinds of hard drugs and other 
paraphernalia coming into the United States. Thank you very 
much, sir.
    Ms. McSally. Gentleman yields back.
    If you don't mind indulging one more last quick question, 
is that all right? So I just want to ask you, Chief Karisch. 
You know, I am really concerned, remain concerned about the 
retention issues both within Border Patrol and our CBP officers 
and some of the elements--I mean we have seen this in the 
military, too, when you are undermanned and the mission is 
intense and there is no relief in sight or you start doing more 
and more things outside your core competency, you can find this 
sort-of spiraling down in retention, right, because just things 
keep getting worse and then more people leave and then get 
worse, is in any way, are you seeing any shift with morale and 
retention specifically related to the National Guard 
deployment, so that there is a little bit of a pressure relief 
that could maybe start us going in a better direction?
    Mr. Karisch. Well, first of all, I have had the opportunity 
to talk the Guardsmen that are in Tucson actually in trying to 
recruit, I think that that is going to be a valuable tool----
    Ms. McSally. Interesting.
    Mr. Karisch. For CBP and the Border Patrol throughout is to 
try to recruit, and not only for them but to also reach out to 
family members because they are going back to their locations, 
I think this is going to be a good opportunity for us is to do 
it. Yes, we have got some efficiencies that we have got to do 
in our hiring is to get the additional people on-board, and key 
to that is also is making sure that we retain the officers and 
agents that we have, because oftentimes we can't offer a lot of 
the locations maybe that other Federal agencies, and I am 
talking about cities to live in but we can make up with that 
also in some type of incentive is to make sure that the 
employee feels valued, feels appreciated, that he is given time 
in a certain area.
    Ms. McSally. But are you seeing with the Guard deployment 
that just a little bit of a pressure relief of the undermanned 
demands and people being able to be more in their core 
competency instead of vehicle maintenance or camera, whatever 
that--are you--I know you probably haven't measured it.
    Mr. Karisch. No, we haven't. I mean but based on the 
conversations that I have had with our work force, it has been 
very positive. I believe the last statistics that I heard this 
year also is that our hiring will actually eclipse our 
attrition this year, which is going to be helpful. So every 
little bit that we can do is going to continue to help us on 
that.
    Ms. McSally. Fantastic. Thank you. I appreciate that. 
Thanks for letting me divulge there. I want to thank the 
witnesses for all your valuable testimony and all your service 
and the Members for their questions. The Members of the 
committee may have some additional questions for you. I will 
ask you respond to these in writing. Pursuant to Committee Rule 
VII(D), the hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Honorable Filemon Vela for Rodolfo Karisch
    Question 1a. When CBP was enforcing the Trump administration's zero 
tolerance policy, what criteria and processes did Border Patrol agents 
use to verify family relationships?
    Answer. Regardless of the Zero Tolerance Prosecution Initiative, 
U.S. Border Patrol (USBP) agents have always prioritized the safety and 
security of minors in our custody including those who claim to be 
accompanied by a parent or legal guardian. USBP agents rely on all 
available evidence to corroborate a familial/custodial relationship. 
This evidence includes verifiable documentation such as a birth 
certificate, passport, or other State-issued documentation. Agents also 
rely on interviewing techniques to make a prima facie determination of 
a parental relationship based on the available information.
    Question 1b. How were these family relationships recorded and 
maintained in CBP's databases?
    Answer. The U.S. Border Patrol has a Family Panel in e3 Intake. 
USBP agents select the members of the family and their role (ex. 
mother, father, son, daughter) and create a family unit or family 
group. There is a unique number assigned to each family unit or group. 
Family Unit records are stored in the Enforcement Integrated Database 
(EID). When subjects are no longer being held as a family unit, the 
designation is removed. Any minors would be re-classified as UACs. When 
the Border Patrol removes a Family Unit designation, the record in the 
live system was moved from the main table to a journal table. The 
record was not removed from the database. These records are still 
available for review and reporting from the journal tables in the EID.
    CBP continues to refine its systems and processes to accurately 
maintain records. Moving forward, in the event of a separation, 
electronic records for all family members are linked in the in e3 
Detention Module (e3DM) to facilitate contact or reunification at a 
later date.
    Question 1c. What safeguards or measures were put in place, if any, 
to facilitate eventual reunification? If none were put in place, why 
not?
    Answer. When a family unit is separated, the minor's alien 
registration number should be recorded in the parent's file and vice 
versa. This information is in the electronic system of record. The 
minor is transferred to the care and custody of the Department of 
Health and Human Services, Office of Refugee Resettlement and all 
appropriate information about the parent's whereabouts is provided to 
ORR. An information sheet provided to parents provides the alien parent 
with contact information for the agencies responsible for family 
reunification, ORR's Parent Hotline, and ICE's Parental Interests Unit.
    Question 2a. Can you please explain what CBP does to ensure family 
units are kept together, per its 2015 National Standards on Transport, 
Escort, Detention, and Search (TEDS)?
    Answer. U.S. Customs and Border Protection's (CBP's) National 
Standards on Transportation, Escort, Detention, and Search (TEDS) 
policy states in part that ``CBP will maintain family unity to the 
greatest extent operationally feasible, absent a legal requirement or 
an articulable safety or security concern that requires separation.'' 
To ensure family units are kept together, they are classified in the 
U.S. Border Patrol's e3 system as being in a family unit or family 
group. This ensures that we have documented their familial 
relationship. To determine processing dispositions, USBP takes into 
account their status as a family unit. This classification affects 
processing and custody arrangements.
    Question 2b. Do the 2015 TEDS still apply to Border Patrol's 
operations?
    Answer. The TEDS Standards apply to CBP's U.S. Border Patrol 
(USBP).
    Question 2c. How are you enforcing adherence to TEDS by Border 
Patrol agents?
    Answer. TEDS establishes minimum standards for all operational 
offices under CBP. Each operational office, including the U.S. Border 
Patrol, must establish policies and procedures that include these 
minimum standards. USBP has systems in place that are used to record 
the information TEDS requires. Information can be pulled from the 
system to verify complaince. Stations also have quality assurance teams 
that verify information is properly recorded. Training is conducted to 
ensure agents are familiar and fully understand the TEDS policy.
    Question 3a. Chief Karisch, you testified that National Guard 
personnel assigned at ports of entry are ``supporting and running the 
non-intrusive inspection devices, X-raying vehicles, X-raying the 
freight that is coming into the United States, freeing up . . . 
officers at the port of entries . . . to do other duties.'' Can you 
please describe the type and length of training these Guardsmen receive 
before conducting non-intrusive inspections of cargo and passenger 
vehicles?
    Answer. The National Guard personnel at the ports of entry support 
non-intrusive ground operations, guiding the flow of conveyances 
through active non-intrusive inspections, under the direct supervision 
of a Customs and Border Protection Officer (CBPO) and primary operator.
    The National Guard personnel performing cargo dock support, guide 
vehicles in a controlled area, and unload, move, and load commercial 
goods to facilitate inspections by CBPOs. This includes preparing boxes 
and crates for inspection by removing tape and plastic covering.
    The National Guard personnel receive overview training in the ports 
of entry regarding the traffic flow, the specific areas where they will 
work, and how to effectively perform those duties under the direct 
supervision of a CBPO. For the National Guard personnel working as 
operational support for non-intrusive inspections, CBP provides 
Radiation Awareness Training, Radiation Safety Refresher Training, and 
Non-Intrusive Inspections Secondary Operator training for the specific 
equipment in the port of entry where National Guard personnel operate.
    Upon arriving to the Port of Entry, the National Guard personnel 
were given 2-day instruction on the Cargo and NII Operations. This 
training included basic traffic flow, personal safety when moving 
around the cargo environment, Personal Protective Equipment, and NII 
exclusion zones of the Large Scale X-Ray systems. If additional 
training is needed, such as forklift training, CBP either provides the 
training or verifies that existing military certifications meet CBP 
requirements.
    All duties assigned to the National Guard are to be conducted with 
a CBP officer present for guidance and direct supervision.
    In addition, the National Guard communicates at our NII Command 
Center to the various points of the NII Operation. By utilizing radio 
communication, they are able to help in the traffic follow and 
direction of conveyances that are being inspected using our various NII 
systems.
    Question 3b. Are the results of those inspections verified by CBP 
officers?
    Answer. Yes, National Guard personnel perform operational support 
functions under the direct supervision of a CBPO at the ports of entry, 
such as traffic control, ground guiding, and parking. CBPOs at the 
ports of entry perform law enforcement functions and inspections. 
Weekly musters are conducted by CBP supervisors and National Guard 
Command to insure that all procedures and directions are being 
followed.
    Question 3c. What is the protocol when a Guardsmen identifies an 
anomaly that requires CBP enforcement action?
    Answer. During the course of their support duties for NII 
operations, National Guard personnel do not identify anomalies, because 
they do not conduct NII inspections. The National Guard personnel 
perform traffic control into the NII operation areas. CBPOs in 
secondary inspection interview the driver and occupants and move them 
to a secondary holding area away from the vehicle. CBPOs then conduct a 
7-point inspection and a thorough examination of any anomaly 
identified. If contraband is discovered, the CBPO will take the 
appropriate enforcement action.
    In the cargo support role, National Guard personnel conduct ground 
guidance, traffic control, and escort trucks for NII inspections. CBPOs 
search the cargo and commercial vehicles and take appropriate 
enforcement action as needed.
    Question 4. Please provide the number of National Guard troops who 
have been assigned to ports of entry, the specific ports, and the 
duties they are carrying out at each location.
    Answer. As of August 20, 2018, 419 National Guard members have been 
assigned to ports of entry. This number does fluctuate daily as mission 
needs change.

----------------------------------------------------------------------------------------------------------------
               Field Office                          Location              Total               Duties
----------------------------------------------------------------------------------------------------------------
San Diego:
                                           Calexico....................         17  Cargo dock inspectional
                                                                                     support, NII operations.
                                           Otay Mesa...................         55  ............................
                                           San Diego...................          0  ............................
                                           San Ysidro..................          0  ............................
                                           Tecate......................          2
                                          ----------------------------------------------------------------------
      Total..............................  ............................         74
                                          ----------------------------------------------------------------------
Tucson:
                                           Nogales.....................         40  Cargo dock inspectional
                                                                                     support, NII operations,
                                                                                     surveillance camera
                                                                                     operators.
                                           Lukeville...................          0  ............................
                                           Douglas.....................         19  ............................
                                           Naco........................          0  ............................
                                           Sasabe......................          0  ............................
                                           San Luis....................          0  ............................
                                           Tucson......................          4  ............................
                                          ----------------------------------------------------------------------
      Total..............................  ............................         63
                                          ----------------------------------------------------------------------
El Paso:
                                           Bridge of the Americas......         29  Cargo dock inspectional
                                                                                     support, NII operations,
                                                                                     vehicle maintenance and
                                                                                     transport, surveillance
                                                                                     camera operators spotter/
                                                                                     observations.
                                           Ysleta......................         28  ............................
                                           El Paso Field Office........          5  ............................
                                           Tornillo-Marcelino Serna....          5  ............................
                                           Presidio....................         12  ............................
                                           Santa Teresa, NM............          8  ............................
                                           Columbus, NM................          7  ............................
                                           Antelope Well, NM...........          0  ............................
                                          ----------------------------------------------------------------------
      Total..............................  ............................         94
                                          ----------------------------------------------------------------------
Laredo:
                                           Del Rio.....................         12  Cargo dock inspectional
                                                                                     support, NII operations,
                                                                                     vehicle maintenance and
                                                                                     transport, surveillance
                                                                                     camera operators spotter/
                                                                                     observations.
                                           Eagle Pass..................         12  ............................
                                           Laredo......................         41  ............................
                                           Roma........................          8  ............................
                                           Rio Grande City.............          4  ............................
                                           Progreso....................         12  ............................
                                           Hidalgo/Pharr/Anzalduas.....         24  ............................
                                           Brownsville.................         31  ............................
                                          ----------------------------------------------------------------------
      Total..............................  ............................        144
----------------------------------------------------------------------------------------------------------------

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
